<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2008

                              ----------                              


                        THURSDAY, APRIL 26, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy presiding.
    Present: Senators Mikulski, Leahy, Kohl, Lautenberg, and 
Shelby.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MEULLER III, DIRECTOR

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Let me mention before we start that, I've 
often used the expression that Senators are merely 
constitutional impediments for their staffs. And, in the United 
States Senate, if it wasn't for the superb staff members of 
both Republican and Democratic Senators, we would not be able 
to exist in this subcommittee. I've served on most of my years 
in the Senate to various integrations.
    We've seen some wonderful people here, but Paul Carliner, 
who's sitting here to my left, this is his last hearing as 
clerk. He's spent 16 years in the Senate, but 8 years on this 
subcommittee. Paul is one of the reasons why the rest of us can 
do our work. He has shown the ability to reach out to Members 
on both sides of the aisle on very difficult things. Everybody 
on this subcommittee wants something, usually something 
different. And he's the one that's trying to do that. So, Paul, 
congratulations to you.
    Mr. Carliner. Thank you, Senator.
    Senator Leahy. And, Director Mueller, thank you for joining 
us today to testify before this subcommittee.
    I also want to thank the Chair of our subcommittee, Senator 
Mikulski, for allowing me to open the hearing on her behalf. 
She's going to be joining us shortly, but she's on her way back 
from the formal send off for the 1,300 Maryland National 
Guardsmen that are going to be deployed to Iraq in the next few 
months.
    Having attended too many of such events in my own State of 
Vermont, I know how hard the send off is for the guardsmen, 
their families, and friends, for Senator Mikulski, and all 
those attending. And our hearts and prayers are with those 
brave Maryland soldiers and all our brave men and women 
preparing to leave and our hearts and prayers are with their 
families. I hope they come back safely.
    Now, I know in the wake of the terrorist attacks, the 
Justice Department's focused much of its attention in the 
prevention of terrorism and the promotion of national security. 
I worry, however, that the budget proposal, if it's enacted, is 
going to divert critical resources and staffing from 
traditional law enforcement matters. We've seen a spike in 
violent crime, which is something I know concerns the Director 
very much. And, if we shift money into counterterrorism, we 
take it away from traditional criminal matters.
    The fiscal year 2008 budget requests a realignment of 100 
criminal agents, counterterrorism work. That would leave 
traditional criminal law enforcement significantly understaffed 
in the Bureau. If you realign these agents further it may 
further erode the Federal Bureau of Investigation's (FBI) 
ability to combat violent crime. It has been cited by the 
Office of Inspector General (OIG) as one of the top management 
challenges at the Justice Department.
    And, since the FBI announced the Virtual Case File 
successor, the Sentinel Program, I really have not been 
confident of the Bureau's ability to manage the status and cost 
of this project. The FBI estimates that Sentinel will 
ultimately cost the American taxpayers $425 million. A December 
2006 OIG audit questioned the reliability of the total 
estimated cost of the program. It was originally expected the 
full Sentinel system would be deployed in 2009. Recently, 
however, we hear a familiar piece of news regarding the FBI's 
computer upgrade project. Apparently there will be delays in 
the deployment of phase one of the Sentinel upgrade, which 
jeopardizes the schedule for this much-needed computer system.
    And, I worry--as one baseball great once said, it's deja vu 
all over again--we tried Trilogy, we scrapped that. We were 
told that Virtual Case File would meet the FBI's needs and 
that's been scrapped. Now that delays in Sentinel have been 
announced, is not clear at all the third time's going to be the 
charm. It's been an expensive series of lessons, costing nearly 
$423 million for these programs so far.
    Another recent report by the Office of Inspector General 
found the FBI can't account for 160 laptop computers, and an 
equal number of weapons that were lost or stolen over a 3\1/2\-
year period. And, this comes 4 years after a recommendation 
that they take steps to ensure the security of this equipment. 
And, even more troubling, in many cases, it was found the FBI 
could not even determine whether these lost or stolen computers 
contained classified or sensitive information, putting Bureau 
employees and other individuals at risk of becoming victims of 
identity theft.
    I am deeply troubled by, as I've discussed with the 
Director and I know of his concern in this, the OIG's report 
finding widespread illegal and improper use of national 
security letters. We had a hearing on this in the Judiciary 
Committee.
    So, we're at a crossroads. And, I think if we don't learn 
from the mistakes, progress won't be made.
    I'll put my full statement in the record. It's quite a bit 
longer.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Director Mueller, welcome and thank you for joining us today to 
testify before the Appropriations Subcommittee on Commerce, Justice and 
Science regarding the fiscal year 2008 budget request for the Federal 
Bureau of Investigation. You and I get to see each other from time-to-
time when you come before the Judiciary Committee for oversight 
hearings. Today, however, I am here wearing my appropriator's cap and I 
look forward to hearing you make the case for the budget the President 
has proposed for the FBI in the coming year.
    I also want to thank the chair of our subcommittee, Senator 
Mikulski, for allowing me to open this hearing on her behalf. She will 
be joining us shortly, but is on her way back from the formal send-off 
of the 1,300 Maryland National Guardsmen who will be deployed to Iraq 
in the next few months. Having attended several such events in my own 
home state of Vermont, I know how hard this sendoff must be for the 
Guardsmen, their families and friends, Senator Mikulski and all those 
attending. Our hearts and prayers are with those brave Maryland 
soldiers--and all of our brave men and women preparing to leave--and 
their families during this difficult time. We hope they will be 
returning home soon.
    During recent years, the FBI has confronted the daunting challenge 
of protecting our nation against international terrorism in the wake of 
the attacks of September 11, 2001, the subsequent anthrax attacks and 
other threats. Director Mueller, you deserve credit for your efforts to 
assure the safety of the American people.
    In the wake of terrorist attacks, I recognize that the Justice 
Department focused much of its attention on the prevention of terrorism 
and the promotion of national security. Its top priorities continue to 
be the prevention, investigation and prosecution of terrorist 
activities against U.S. citizens and interests, which is evident in the 
request for more than $417 million in new investments for the FBI, 
including counterintelligence activities and justice information 
systems technology.
    Nonetheless, I am concerned that this budget proposal, if enacted, 
would divert critical resources and staffing from traditional law 
enforcement matters, such as reducing the spike in violent crime, to 
support the Bureau's counterterrorism work. The fiscal year 2008 budget 
requests the realignment of one hundred criminal agents to 
counterterrorism work. This would leave traditional criminal law 
enforcement significantly understaffed at the Bureau. Realigning these 
agents may further erode the FBI's ability to combat violent crime and 
has been cited by the Office of Inspector General (OIG) as one of the 
top management challenges at the Justice Department. We must not allow 
daily responsibilities that keep our citizens safe to fall aside.
    It has been over two years since the FBI announced it would scrap 
the three-year $170 million effort to develop a modern case management 
system, known as the Virtual Case File, or VCF. I have repeatedly 
expressed to you, Director Mueller, my deep frustration over the 
millions of dollars wasted on ``lessons-learned,'' and the fact that 
more than three years have passed since the original deadline while 
these technology goals are not met.
    Since the FBI announced the VCF's successor, the Sentinel program, 
I have seen nothing to boost my confidence in the Bureau's ability to 
manage the status and cost of this project. While the FBI estimates 
that Sentinel will ultimately cost the American taxpayers $425 million, 
a December 2006 OIG audit report questioned the reliability of the 
total estimated costs for the program. It was originally expected that 
the full Sentinel system would be deployed in 2009. Just recently, 
however, we learned a familiar piece of news regarding the FBI's 
computer upgrade project. Apparently there will be delays in the 
deployment of Phase I of the Sentinel upgrade, which jeopardizes the 
schedule for this much-needed computer system.
    This latest setback is one of a string of costly delays in the 
FBI's efforts to upgrade its computers. Sentinel was launched after the 
FBI wasted five years and millions of taxpayer dollars on the failed 
Trilogy program. By my calculations, at least $253 million has been 
invested in Sentinel alone from fiscal year 2005 to fiscal year 2007 
between reprogramming dollars and Congressional appropriations. The 
President's fiscal year 2008 Budget proposes no funding for the 
project. The first of four program upgrade phases has yet to be 
completed, although we expected the entire Sentinel program to be up 
and running by 2009.
    Director Mueller, this committee has to ask: Is this deja vu all 
over again? You tried Trilogy and scrapped that. You told us that 
Virtual Case File would meet your needs and you scrapped that. Now that 
delays in Sentinel have been announced it's not clear at all that the 
third time will be the charm. This has been an expensive series of 
lessons--costing nearly $423 million for these three programs so far--
learned on the backs of American taxpayers.
    We must ensure that the FBI's technological capabilities keep pace, 
and to do so requires not only an emphasis on providing funds but also 
effective use and implementation. I hope the latter is not neglected 
and I remain seriously concerned about this project.
    The pattern of incompetence and lack of accountability within the 
Bureau is also on display with its treatment of its own equipment and 
weapons. Another recent report by the DOJ OIG found that the FBI cannot 
account for 160 laptop computers and an equal number of weapons that 
were lost or stolen over a 3\1/2\ year period. This finding comes 4 
years after the Inspector General recommended that the FBI take steps 
to ensure the security of this equipment. Even more troubling, in many 
cases it was found that the FBI could not even determine whether its 
lost or stolen computers contained classified or sensitive information, 
putting Bureau employees and other individuals at risk of becoming 
victims of identity theft and potentially compromising national 
security information
    I am deeply troubled by the DOJ OIG's report finding widespread 
illegal and improper use of National Security Letters (NSLs) to obtain 
Americans' phone and financial records. As Chairman of the Senate 
Judiciary Committee, I convened a hearing on NSL abuse several weeks 
ago. Inspector General Fine testified that his office found 22 separate 
instances where the FBI improperly abused NSLs in the review of just 77 
FBI files. Not a single one of these violations had been reported by 
the FBI. On top of that, because the FBI still lacks the information 
technology that it needs to function efficiently in the Information 
Age, OJG found that the FBI database used to track NSLs malfunctioned, 
making it impossible to keep track of these letters. I fear that the 
violations the Inspector General uncovered are probably just the tip of 
the iceberg and that there could be thousands of additional violations 
among the tens of thousands of NSLs that the FBI is now using each 
year.
    The FBI finds itself again at a crossroads. Acknowledging 
shortcomings is well and good, but the Bureau--and the Justice 
Department as a whole--must also learn from its mistakes if progress is 
to be made. The time has come for demonstrable progress by the Bureau 
on a learning curve that has gone on and on for far too long. Much work 
remains to be done and I have no doubt that the leaders and members of 
this Subcommittee will fulfill their obligation to the American people 
to carefully examine all of these issues.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman. We appreciate you 
being here in place of Barbara Mikulski. We know Senator 
Mikulski, the Chair, is tied up, but she's very involved in 
these issues.
    Paul, I want to just say to you, we wish you well. As 
Senator Leahy said, you've served the Senate well, you've 
served this subcommittee very, very well and we wish you the 
very best in whatever your next step is. We'll miss you here. 
You have--on this side of the aisle--I know you work with the 
Democrats, but you have, when I was chairman of this 
subcommittee, you were a valuable resource to getting the job 
done here, for everybody, and we owe you a lot. And, we thank 
you for your service to the Senate and to the Nation.
    Mr. Carliner. Thank you, sir.
    Senator Shelby. Director Mueller, thank you for joining us 
today to discuss the Federal Bureau of Investigation's 2008 
budget request. One week after your arrival as the sixth 
Director of the FBI, our Nation suffered its worst terrorist 
attack ever on U.S. soil. The September 11, 2001 attack--
attacks on the World Trade Center and the Pentagon signified 
the transformation of a new FBI, focusing more on national 
security. Congress has tasked the FBI with more responsibility 
than any other Federal law enforcement agency, resulting in 
more challenges and changes than ever before.
    The FBI is the Nation's premier law enforcement 
counterterrorism and counterintelligence agency that 
investigates criminal activity and includes terrorism, foreign 
intelligence, operations, espionage, cyber-crime, public 
corruption, national criminal organizations, white-collar 
crimes, and significant violent crime. The FBI request for 2008 
is $6.4 billion. This is a $391 million increase over the 2007 
joint resolution funding level.
    It has come to my attention, Mr. Director, that the FBI has 
a $139 million shortfall in the 2008 budget request. Chairman 
Mikulski and I want to work with you to ensure that the FBI has 
sufficient resources to protect our Nation. Based on my review 
of your request, combined with the likely fiscal constraints of 
this subcommittee, we will need your assistance as we face 
tough funding decisions regarding the allocation of resources 
in your budget.
    This subcommittee and the Bureau share the difficult task 
of targeting these limited resources in a manner that 
safeguards taxpayers' dollars, while preserving public safety. 
The Department of Justice's inspector general (IG) recently 
issued a report critical of the FBI's use of national security 
letters (NSL). The IG's review found that more than 60 percent 
of the files examined, including--included violations of the 
FBI's own policies and procedures.
    The report also identified significant abuses in the use of 
exigent letters. The FBI regularly issued them when no 
emergency existed, often when there was not even a criminal 
case open. The lack of controls in the use of national security 
letters and exigent letters is very troubling, but as the 
former chairman of the Senate Select Committee on Intelligence, 
I also know that they're critical in your mission of keeping 
America safe.
    Director Mueller, in our meeting last month, you committed 
to fix the deficiencies identified in the IG report and to 
implement its 10 recommendations. The FBI must carefully 
balance the privacy protections and civil liberties of 
Americans against the need to provide its agents critical 
information that's pivotal to mission success.
    Chairman Mikulski and I have provided the FBI $10 million 
in the current war supplemental bill to carry out the IG's 
recommendations to fix these problems.
    We're extremely saddened, as you were, by the tragedy that 
took place on the Virginia Tech campus last week. I understand 
that the FBI dispatched 20 agents, four victim assistant 
specialists, and one terrorism victim specialist. I look 
forward to hearing from you, Mr. Director, about the FBI's 
role, and what these men and women are doing to assist those 
affected by this terrible event.
    While I wholeheartedly support bringing the FBI into the 
21st century and realize the importance of information 
technology in the FBI's mention--mission, I have a number of 
unanswered questions about Sentinel's phase one implementation. 
Given your Trilogy failure, I will not support unlimited and 
unchecked resources and will not tolerate broken promises for 
the results of information technology (IT) projects that are 
not fulfilled or delivered.
    I understand that things are on track and within budget, 
but I expect the questions of this subcommittee to be answered 
in a timely and complete manner. This has not occurred, but I'm 
hopeful that with your commitments here today, we'll be able to 
continue our support for this needed, important project.
    The FBI's Hazardous Device School, HDS, at Redstone 
Arsenal, is the crown jewel of the Federal Government's effort 
to provide training to Federal, State, and local bomb 
technicians. In partnership with the Army, this facility has 
trained over 20,000 bomb technicians in the past 36 years. 
That's a proven record of success.
    HDS is the only pre-blast explosive training school in the 
United States. With the continued construction of the National 
Center for Explosive Research, Redstone Arsenal will become the 
home of Federal law enforcement explosives training and 
research. I'm working collaboratively to expand the Federal 
Government's explosive infrastructure and expertise here. I 
look forward to hearing from you, Director Mueller, to ensure 
that Redstone Arsenal is, and will continue to be, the law 
enforcement capital of explosives research and training.
    There are other issues I'd like to discuss this morning, 
including the use of resources for the FBI's priority missions. 
In addition, I would like to talk about the relationship of the 
FBI Director to the new Director of National Intelligence and 
the financial and manpower implications for the FBI. I remain 
concerned that this new arrangement, while important, is 
placing additional personnel stresses on an overburdened FBI. I 
fear that some of the FBI's traditional law enforcement 
responsibilities will not be sufficiently supported by this 
budget request.
    Director Mueller, I look forward to hearing your thoughts 
on the FBI's budget request and we also look forward to working 
with you on these and other important issues facing our Nation.
    And, Madam Chairman, I just want to thank the men and women 
who work at the Federal Bureau of Investigation for what they 
do to keep this country secure.
    Thank you.
    Senator Mikulski [presiding]. Thank you very much, Senator 
Shelby, and good morning to everybody. I'm going to say just a 
few quick thanks before we go right into our hearing.
    First, thank you, Senator Leahy, for opening this hearing 
and advising everyone that I was with our Governor, Governor 
O'Malley, to see off the first phase of National Guard 
deployment from the State of Maryland, 1,400 Marylanders have 
been called up, and will all be leaving in 90 days. So, we 
wanted to be there for them this morning.
    So, Senator Leahy, thank you for that.
    And, Director Mueller, thank you for accommodating the 
delay of starting this hearing.
    I want to advise my colleagues that the Director must leave 
at noon. So we're going to go right into allowing you to 
testify, so I ask that during the questions, if you have things 
you want to incorporate from your opening statement, do.
    I also want to thank Senator Leahy for acknowledging that 
today is the last hearing--the last public appearance of Paul 
Carliner--Ace Aide who's served me for 12 years. He has served 
the Nation for 12 years in his role as my clerk on 
Appropriations. We wish Paul well. We know wherever he goes, he 
will be outstanding. But also, it's a goodbye for the FBI's 
legislative Ace Aide as well, Eleni Kalisch.
    Eleni, please stand up so people can know who you are.
    Ms. Kalisch is going to be leaving the FBI. She has been 
the Director's liaison to this subcommittee and has done an 
outstanding job. We always appreciated your candor and your 
cooperation, as you appreciated Paul's candor, we'll call it 
candor these days because we're being kind. But really, we wish 
you very well, Ms. Kalisch, in your new life. Because I think 
all of us know, we can't do our job without the worker bees and 
we thank our staff and again, reiterate how much we appreciate 
the FBI itself.
    Senator Shelby outlined the budget concerns. I'm going to, 
essentially, agree with the issues that he's raised, and ask 
unanimous consent that my full statement be in the record.
    And, note the fact that we've asked the FBI to essentially 
be two agencies, but the same agency. One agency to fight the 
global war against terrorism, to have an agency within the 
agency, our own, kind of American, uniquely American version of 
MI5, to really work in protecting our homeland, and at the same 
time to continue fighting violent crime, protecting children 
against exploitation, whether it's on the Internet or in the 
playgrounds, from despicable, heinous sexual predators. We are 
working to give them the resources to do both, which requires 
new people, requires new training, and requires us to stand 
sentry against those things that sometimes get out of our 
control.
    So, in the course of this hearing, we're going to come back 
to know if you have the real resources to fight this new 
emerging spike in organized crime. How is it working to take on 
what we're asking you to deal with, the exploitation of 
children? Cyber-crime is despicable, whether it's a hacker 
against our national lab or whether it's a cyber-stalker 
against our kids. And, at the same time, the FBI is fighting 
the global war against terrorism.
    I was recently in London and had the chance to meet with 
MI5, but while I was meeting with MI5 I was also meeting with 
the FBI office there. And I saw how the FBI and our intel 
agencies worked with a very treasured ally in disrupting that 
very ghoulish airline plot of last summer.
    So, you've got a big job, we know that your budget has 
increased, but we want to make sure we're matching resources 
with mission and also standing sentry on our accountability 
issues. So, having said that, the statement I wanted to make on 
the details of the budget, I'll put into the record.
    Why don't you go ahead and present your testimony, Director 
Mueller, and then we'll get right into the questions, which I 
think is the meat and potatoes of the hearing.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    This is the second in our series of hearings focusing on 
security. Unfortunately, this comes in the aftermath of two 
tragedies--the tragic events at Virginia Tech last week and the 
death of FBI Special Agent Barry Lee Bush, a 20-year veteran of 
the FBI, who was killed in the line of duty in New Jersey three 
weeks ago. In both cases, we were reminded that violent crime 
is a growing problem in this country and the FBI's own 
statistics show it is on the rise.
    The number one job of government is to keep our communities 
safe from violence. But the rise in violent crime and the 
critical ongoing fight against terrorism have placed new 
pressure on the FBI. Just look at the FBI's top priorities: 
combating terrorism, preventing the acquisition of weapons of 
mass destruction, stopping violent crime on our streets, 
stopping foreign intelligence operations, stopping the 
exploitation of children, and fixing their information 
technology infrastructure.
    The FBI is both an intelligence and a law enforcement 
agency. It is no longer just a domestic law enforcement agency. 
It is now a global intelligence and law enforcement agency 
operating in over 50 foreign countries. Unfortunately, compared 
to other intelligence agencies, the FBI share of the overall 
intelligence budget is small.
    Yet, the FBI is charged with protecting 300 million 
Americans from a terrorist attack. In January, the President 
increased the FBI's role in counterterrorism by transferring 
the Render Safe mission from the Defense Department to the FBI. 
This means the FBI is now responsible for dismantling a nuclear 
device in the United States.
    This has increased the FBI's responsibility and placed 
added pressure on its budget. I am very concerned about the 
rising rate of violent crime. Just look at the most recent 
statistics from the FBI: robbery is up by 9.7 percent, 
aggravated assault is up by 1.2 percent, murder has increased 
by 1.4 percent and for cities with populations of 500,000 to 1 
million--the murder rate has increased by 8.4 percent.
    However, since 9/11, the FBI has shifted almost 2,000 
agents from violent crime into counterterrorism. This forced 
state and local law enforcement to take up the slack, because 
of rising crime rates, state and local law enforcement are 
stretched to the limit.
    I believe we need more resources dedicated to violent 
crime. State and local law enforcement needs the FBI to help 
them fight street gangs like MS-13 and other types of organized 
crime plaguing our communities. Joint federal-state task forces 
are the most effective means to combat violent gangs, drug 
dealers and others who have a predatory intent. We should 
expand federal-state task forces to help locals fight crime on 
the streets.
    Unfortunately, the President's budget cuts $1.5 billion 
from state and local law enforcement. You cannot cut the COPS 
program when violent crime is on the rise. Our communities need 
federal resources to keep them safe.
    In addition, I am concerned about the recent disclosure of 
abuses in issuing National Security letters. The Justice 
Department Inspector General [IG] found the FBI had no tracking 
or compliance procedures. This is unacceptable.
    That's why we added $500,000 to the IG's budget in the 
Supplemental Appropriations bill to continue oversight of the 
FBI on this subject. In addition, we directed that $10 million 
of the FBI's budget be dedicated to implementing the IG 
recommendations to make sure the FBI fixes the problem.
    The FBI must not only protect us from terrorists, they have 
to protect our privacy and our civil rights. I commend Director 
Mueller for his swift response to this problem and I look 
forward to hearing his long-term plan to correct these abuses.
    This subcommittee will also maintain it's vigilance on 
Sentinel, the FBI's long-delayed IT program. After the collapse 
of Trilogy, the FBI must stay on track, and see that this 
program does not fail.
    At the Congress' request, both the GAO and the Justice 
Department IG are monitoring and overseeing this program. We 
will maintain our vigilant oversight to ensure that this 
program stays on track and that no taxpayer dollars are wasted.
    The President's proposed budget for the FBI for 2008 is 
$6.4 billion, a 5 percent increase over fiscal year 2007. The 
proposed budget for fiscal year 2008 provides funding for 
11,868 special agents and 17,500 professional support 
personnel.
    I want to point out to my colleagues that since 2001, the 
FBI's budget has increased by over 100 percent. Few other 
agencies have had a 100 percent increase to their budget in 
just six years. But given the critical mission of the FBI, even 
a 100 percent increase may not be enough to fulfill its mission 
of protecting the American public.
    In counterterrorism, the budget proposes $2.5 billion, a 
$160 million increase over last year. This increase will pay 
for 176 additional special agents and 111 additional 
intelligence analysts in the counterterrorism division. 
Counterterrorism now accounts for 40 percent of the FBI's 
budget.
    In the area of violent crime, the fiscal year 2008 budget 
proposes to spend $2.1 billion, which is a $50 million increase 
over 2007. This is just a 2.5 percent increase over 2007.
    I have two concerns with this budget. First, the FBI's most 
recent statistics show a rise in violent crime across the 
country. When you add the $1.5 billion cut to state and local 
law enforcement in the President's budget, it becomes a double 
cut. Second, a 2.5 percent increase is not enough, given the 
needs of our communities all across this country. State and 
local law enforcement want to expand their cooperation with the 
FBI.
    The budget proposes to spend $22 million to fight crimes 
against children, a 5 percent increase over last year. We must 
do more to fight sexual predators. Our neighborhoods and 
communities need to be protected from these horrible predators. 
Since many of these predators use the internet and come from 
other states, only the FBI can mount a national fight against 
these predators, in cooperation with state and local law 
enforcement.
    Given all of these important roles and responsibilities, we 
must ensure that the FBI has the resources it needs. The lives 
of 300 million Americans depend on it.

    Mr. Mueller. Thank you and good morning, Madam Chair, 
Chairman.
    And, let me also start off by thanking Paul Carliner for 
his service. Looking at it, not from either side of the aisle, 
but from this side of the bench, let me tell you that our 
relationship has been terrific. You have been tremendously 
helpful and understanding the needs of the FBI and translating 
them into pieces of legislation to give us the funds that we 
need to do our mission. And, I also want to join the others in 
thanking you for the service and tell you that there are also, 
always employment opportunities at the FBI.
    And, let me also mention with Eleni Kalisch here, who has 
been, I must say, my strong right arm in what is an 
exceptionally important position in the FBI and that is a 
liaison with Congress. She has done a remarkable job. I hate to 
see her go, but I wish her good sailing and we will miss her. 
So, thank you, also for your service.
    I appreciate the opportunity, Madam Chairman, to be here 
today to discuss our 2008 budget request. I'd also like to 
thank this subcommittee for its continued oversight and support 
of the Bureau, as we work together to keep the Nation safe, 
while preserving the privacy rights and civil liberties of all 
Americans.
    As I said, the subcommittee is aware, and has pointed out, 
the FBI has been undergoing significant restructuring, 
realignment, and transformation for the past 5\1/2\ years. All 
designed to better position the Bureau to meet the threats and 
challenges of the future. And, the men and women of the FBI 
have demonstrated the ability and the willingness to embrace 
change for a better, stronger, and more effective organization. 
In order to continue to meet the evolving challenges facing the 
Nation, our 2008 budget request totals almost 30,000 positions 
and $6.4 billion.
    I would like to briefly address the five key challenges 
that are the focus of this budget request. First is combating 
terrorism; second, preventing the acquisition of weapons of 
mass destruction; third, defeating foreign intelligence 
operations; fourth, reducing child exploitation and violent 
crimes; and five, strengthening infrastructure and information 
technology.

                          COMBATING TERRORISM

    The first challenge continues to be addressing the current 
terrorist threat environment. It is clear that the FBI's 
operational and analytical commitment to combating terrorism 
must continue to grow. And, therefore, our budget requests 231 
new positions, 126 of which are agents. These resources will 
enable the Bureau to conduct investigations to prevent, 
disrupt, and deter acts of terrorism.
    Our intelligence-driven focus in addressing terrorism, at 
this point, is taxing our physical surveillance and electronic 
surveillance intelligence-gathering capabilities. Therefore, we 
are seeking enhancement of 118 new positions, including 12 
agents, $65 million, to strengthen surveillance and technical 
collection capabilities.
    The capacity to carry out extended covert surveillance of 
subjects and targets is essential to the FBI's counterterrorism 
and counterintelligence programs. Additionally, we must be able 
to develop and deploy new operational technologies and 
techniques to counter a more technically sophisticated 
adversary and to exploit and share the information that we 
gather.

                      WEAPONS OF MASS DESTRUCTION

    The second challenge that we are facing, addressed in the 
2008 budget, is the intent of terrorists to seek the means and 
capability to use weapons of mass destruction against the 
United States.
    In July of last year, we established the Weapons of Mass 
Destruction (WMD) Directorate to better integrate and leverage 
FBI counterproliferation and WMD intelligence analysis and 
prevention programs. We must continue to build this Directorate 
and we have requested 146 new positions toward that end, as 
well as $19 million to continue to enhance our capabilities to 
prevent, prepare for, and respond to the threat of WMD.

                    FOREIGN INTELLIGENCE OPERATIONS

    The third significant challenge addressed in our 2008 
budget is, or budget request, is the foreign intelligence 
threat to the United States. Foreign powers continue their 
efforts to establish economic, military, and political 
preeminence and to position themselves to compete with the 
United States in economic and diplomatic arenas. Foreign 
adversaries are increasingly employing nontraditional 
collectors, such as students, visiting scientists, scholars, 
businessmen, as well as cyber-based tools, to target and 
penetrate U.S. institutions.
    Our budget request includes a request for 119 positions, 55 
of which are agents, and $26.5 million to address these 
activities.

                           CHILD PORNOGRAPHY

    The fourth program area included in our 2008 budget request 
is combating child pornography and obscenity, and protecting 
children from trafficking and other forms of exploitation. One 
of the most important and successful programs is the innocent 
images national initiative, which for 10 years, has targeted 
sexual predators who use the Internet to exploit children.
    We have ongoing undercover operations across the country 
with more than 240 agents who investigate cases with their 
State and local counterparts. Unfortunately, there is no 
shortage of work in this arena. Our caseload has spiked from 
just 113 cases in 1996 to more than 2,100 last year. Our budget 
request proposes 14 new positions and $2.4 million for the 
Crimes Against Children and Innocent Images Programs.
    As this subcommittee is aware and has been pointing out in 
the opening statements, the country is experiencing an uptick 
in violent crime, particularly as it relates to gang violence. 
By our own estimates, there are now over 30,000 gangs across 
America and over 800,000 gang members. The FBI has established 
131 violent gang task forces across the country, enabling FBI 
agents to work in lockstep with police on the street, sharing 
information, and conducting investigations together.
    While combating violent crime remains a priority, the shift 
in resources from our criminal programs to our national 
security programs has been significant. And, in this current 
budget process, I'm looking forward to working with the 
subcommittee to ensure that our criminal programs may be 
restored to appropriate resource levels.
    I might add that, in this context, the budget process 
started 2 years ago. And consequently, when we sat down and 
addressed our priorities 2 years ago, we did not have the 
benefit of information that may have come along afterward, such 
as the recent statistics that indicate the uptick in violent 
crime. And so, as we go through this process, we want to work 
with the subcommittee to take into account those factors that 
may have come about over the last couple of years since we 
started this budget process.
    I might also add in this context, that in addition to our 
investigative capabilities, the Bureau brings to local, State, 
and national efforts, efforts against violent crime, a number 
of proven crime fighting technologies, services, and tools that 
are used every day by law enforcement agencies throughout the 
country. Whether it be forensics, identification and 
information technologies, all are crucial for leveraging the 
capabilities of our State and local law enforcement partners in 
the fight against violent crime. This also, should be taken 
into context as we go through this budget process this year.

               INFRASTRUCTURE AND INFORMATION TECHNOLOGY

    Finally, the overall success of the FBI's mission requires 
the appropriate work environment and updated information 
technology. The 2008 budget includes $15 million to provide 
technology support, and to prevent information technology 
obsolescence. This funding will enable us to upgrade networks 
and encryption to comply with mandated intelligence community 
protocols and to begin bringing desktops, laptops, servers, 
printers, into a 3-year technology refreshment cycle.
    Our request also includes a total of $11.5 million to 
address critical space requirements, including requirements 
associated with the FBI headquarters annex and $4 million for 
the central records complex. The annex will provide additional 
space to ease existing fragmentation of headquarters, divisions 
and offices. The central records complex will consolidate most 
of our records into a single facility, moving from a system of 
paper records to digital records.
    This covers, Madam Chairman, the five key areas, including 
violent crime, that are addressed in our 2008 budget request.
    But before concluding my remarks, I would like to provide 
an update on the development of our information management 
system, known as Sentinel. As has been pointed out by Senator 
Leahy, Sentinel is being developed in four phases, and will be 
delivered in increments beginning this year. We have attempted 
to keep your staffs briefed, every 2 weeks, at this juncture, 
on the status of that project. Our contractor, Lockheed Martin, 
has completed the critical design and build of the software 
application and is presently in the testing phase. Once this 
testing is complete, we will begin piloting phase one at 
headquarters, followed by piloting in several field offices, 
during which time ourselves and Lockheed Martin will correct 
any additional issues that surface. And, shortly after we 
complete the testing in pilot offices, we will begin the 
rollout of Sentinel training and the software application 
across the organization.
    We had hoped to begin deployment this month. Currently, we 
anticipate beginning deployment next month. I will tell you 
that the schedule has shifted, as a result of some unforeseen 
technicalities, a total of 5 weeks. I will also tell you that 
we are on budget. We will continue to keep the subcommittee 
updated on our progress in the weeks ahead.
    Madam Chairman, Senator Shelby, members of the 
subcommittee, I thank you for the cooperation and the support 
you have given to the FBI in the past and I ask for your 
support in providing the resources requested, not only in the 
2008 budget, but also resources that may be necessitated by a 
change of circumstances over the last several months or years. 
Again, I appreciate the opportunity to testify this morning and 
look forward to answering your questions.
    Thank you, Madam Chairman.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller III

    Good morning, Madam Chairman, Senator Shelby, and members of the 
subcommittee. I appreciate the opportunity to appear before you today 
to discuss the President's Fiscal Year 2008 Budget for the Federal 
Bureau of Investigation (FBI). I would also like to thank you for your 
continued oversight of the Bureau and your efforts to ensure our 
success as we pursue the shared goal of making America safer.
                          2008 budget request
    The fiscal year 2008 budget for the FBI totals 29,373 positions and 
$6.4 billion. The net fiscal year 2008 program increases total 714 new 
positions (231 agents, 121 intelligence analysts, and 362 professional 
support) and $313.8 million. Our fiscal year 2008 budget is focused on 
improving the FBI's capabilities in addressing five key challenges: 
combating terrorism; preventing the acquisition of weapons of mass 
destruction; defeating foreign intelligence operations; reducing child 
exploitation and violent crimes; and strengthening infrastructure and 
information technology.
    I recognize that there are many competing requirements for limited 
funding. Nonetheless, the FBI must continue the progress it has made to 
implement the President's directives and the recommendations of the 9/
11 Commission and the Weapons of Mass Destruction Commission. At the 
same time, the FBI must be resourced to discharge its critical criminal 
investigative mission that also contributes to the overall safety and 
security of the Nation. In addition, for the FBI to be a full partner 
in the intelligence community it must have the tools, capacities, and 
capabilities to work closely with other members of the community. 
Finally, the FBI must find the proper balance between expanding our 
workforce and supporting on-board employees with the technology and 
infrastructure necessary to accomplish our mission. I believe the 
fiscal year 2008 budget will go a long way toward achieving these 
goals.
                          combating terrorism
    The current terrorist threat environment shows no signs of abating 
in the near term. Consequently, the FBI's operational and analytical 
commitment to combating terrorism is not expected to decrease. The FBI 
must remain vigilant for indications of terrorist groups shifting focus 
from the insurgency in Iraq and Afghanistan to acts that could be 
carried out against United States interests outside the current theater 
of operation and/or against the United States homeland. The FBI must 
also continue its efforts to deny terrorist groups and sympathizers the 
ability to raise funds and to carry out other operational and 
logistical support from the United States.
    This budget requests 231 new positions (126 agents) and $44.4 
million to conduct intelligence-drive terrorism investigations and 
operations. Additionally, the fiscal year 2008 budget proposes the 
reallocation of 100 field special agents from criminal investigations 
to counterterrorism. These resources will enable the FBI to conduct 
investigations to prevent, disrupt, and deter acts of terrorism and 
continue to strengthen working relationships with our Federal, State, 
and local partners; enhance our capacity for analyzing and exploiting 
information from growing volumes of seized terrorist digital media and 
communications; enhance the Terrorist Screening Center operations 
center; provide support to the National Virtual Translation Center, 
which serves as a clearinghouse to facilitate timely and accurate 
translation of foreign intelligence for elements of the intelligence 
community; and address growth in the number of terrorism and 
counterintelligence-related computer intrusion cases.
    Shifting from a reactive criminal prosecution approach to a more 
prevention and intelligence-driven focus in our counterterrorism 
program is taxing the FBI's physical surveillance and electronic 
surveillance intelligence gathering capacities. The capacity to carry 
out extended covert surveillance of subjects and targets is absolutely 
critical to the FBI's counterterrorism and counterintelligence 
programs. Surveillance capacities--physical and electronic--give us 
insight and awareness of our adversaries. Insight and awareness, in 
turn, create opportunities to identify sleeper cells, disrupt support 
networks and communications, and recruit assets. We need a robust 
surveillance capacity to keep on top of known and emerging targets. 
Additionally, we must be able to develop and deploy new operational 
technologies and techniques to counter a more technically sophisticated 
adversary and to exploit and share the information we gather.
    In fiscal year 2008, we seek an enhancement of 118 new positions 
(12 agents) and $65 million to strengthen surveillance and technical 
collection capacities. These resources will enable the FBI to increase 
the number of physical surveillance teams; address growing workload for 
electronic surveillance involving broadband and other data network and 
internet communications; develop new techniques and tools to address 
emerging technologies; meet demands for new audio and data collection 
and upgrade existing and/or obsolete digital collection system 
equipment and components; address growing workload for covert entries 
and searches; and develop new techniques and tools for tactical 
operations.
    An integral part of our national security program is the 
development and operation of human intelligence. Our budget request 
includes 85 new positions (6 agents) and $22.3 million to strengthen 
human intelligence capacities. This funding will enable the FBI to 
provide staffing for field intelligence groups to comply with new human 
source validation standards and perform continuous assessments; 
continue development and deployment of Delta to support management of 
over 15,000 FBI human sources; deliver and deploy comprehensive human 
source targeting and development training; and remediate human source 
handling deficiencies. The intelligence derived from FBI human 
intelligence source collection also enables other agencies' success in 
their counterterrorism, counterintelligence, and counterproliferation 
missions.
    We are fortunate that there has not been another major terrorist 
attack within the United States since September 11, 2001. This reflects 
positively, in part, on the hard and diligent work of FBI employees and 
those individuals who work alongside them, such as prosecutors and our 
partners in law enforcement and intelligence. However, we cannot afford 
to lessen our guard against the threat from terrorism. We must continue 
to invest in the resources and capabilities to counter an ever adapting 
and agile adversary.
preventing the acquisition of weapons of mass destruction (wmd)/render 
                                  safe
    The National Counterterrorism Center WMD Threat Assessment, 2005-
2011, reaffirmed the intent of terrorist adversaries to seek the means 
and capability to use WMD against the United States at home and abroad. 
Denying these adversaries access to WMD is a top administration 
counterterrorism strategy priority. Within the U.S. Government, the FBI 
has been assigned responsibility for Render Safe operations involving 
all WMD in the National Capital Region. The responsibility to render 
safe WMD throughout the remainder of the United States belongs to the 
FBI, supported by the Department of Defense. To fulfill its critical 
responsibilities in the area of WMD, the FBI must continue to build to 
the capacities and capabilities of its WMD Directorate and the Render 
Safe Program.
    The WMD Directorate was created in July 2006 to better integrate 
and leverage FBI counterproliferation and WMD intelligence analysis and 
prevention programs. The fiscal year 2008 budget seeks 146 new 
positions (29 agents) and $19 million to continue to enhance the 
Directorate's capabilities to prevent, prepare for, and respond to the 
threat of WMD. These resources will allow the FBI to enhance strategic 
partnerships with foreign intelligence, law enforcement, security, 
public health, agricultural, chemical, and other public and private 
sector agencies and organizations that are vital to the early detection 
of a potential WMD incident.
    The fiscal year 2008 budget also includes enhancements of 9 
positions (3 agents) and $11 million to enhance the FBI's Render Safe 
Mission, which encompasses both the tactical and technical response to 
incidents involving WMD within the United States and its territories. 
The complete development of a robust render safe crisis response for 
the directed contingencies requires the FBI to develop command and 
control capabilities to support deployments and to provide the FBI and 
United States Government leaders with the information required to make 
time-critical decisions. The requested funding will allow the FBI to 
enhance its National Asset response staffing beyond current minimum 
levels and provide program personnel with adequate training, equipment, 
supplies, and services. Additionally, the requested funding will allow 
the FBI to upgrade its Render Safe technical tools so the operators 
will have the latest and most effective technology at their disposal to 
meet and dispose of this challenge.
               defeating foreign intelligence operations
    The foreign intelligence threat to the United States is increasing 
as foreign powers continue their efforts to establish economic, 
military, and political preeminence and to position themselves to 
compete with the United States in economic and diplomatic arenas. 
Foreign adversaries are increasingly employing nontraditional 
collectors--e.g., students and visiting scientists, scholars, and 
businessmen--as well as cyber-based tools to target and penetrate U.S. 
institutions. The fiscal year 2008 budget includes 119 positions (55 
agents) and $26.5 million to address these activities.
    In November 2005, the FBI launched a Domain Management Initiative 
to focus attention on whether the FBI is conducting the right 
investigations to have the greatest impact on threats to national 
security. Continued implementation of the domain initiative will 
provide FBI leaders with a comprehensive and context decision-making 
environment. It will allow field office executive management to examine 
its target and regional environment and discuss the relative priority 
and focus of different activities. In addition, resources are needed to 
transform and leverage the capacities and capabilities of the Foreign 
Terrorist Tracking Task Force (FTTTF) into a National Security Analysis 
Center that would provide expanded analytical support to all FBI 
National Security programs by leveraging data and services residing in 
both FTTTF and the Investigative Data Warehouse.
              reduce child exploitation and violent crimes
    The FBI remains committed to fighting child pornography and 
obscenity, and to protecting children from trafficking and other forms 
of exploitation.
    The fiscal year 2008 budget proposes 14 new positions and $2.4 
million for the Crimes Against Children (CAC) and Innocent Images 
National Initiative (IINI) programs. These resources will enhance 
field-based Child Abduction Rapid Deployment (CARD) Teams that provide 
onsite response and investigative and technical assistance in child 
abduction cases. The funding will also enable the IINI, which targets 
child prostitution, to enhance its capacity to disseminate intelligence 
regarding unregistered sex offenders and innocent images 
investigations.
    In addition to its investigative capabilities, the FBI brings to 
local, State, and national efforts against violent crime a number of 
proven crime-fighting technologies, services, and tools that are used 
every day by law enforcement agencies throughout the country to solve 
crimes and put criminals in jail. FBI forensic, identification, and 
information technologies and tools are critical for leveraging the 
capabilities of our State and local law enforcement partners in the 
fight against violent crime. Access to these crime-solving services and 
capabilities is even more important in a post 9/11 environment where 
the FBI may not always be able to devote the level of special agent 
resources to violent crime as it has in the past. Over the past several 
years, State and local agencies have been provided grant funding to 
improve their digital forensic, DNA, automated fingerprint 
identification, and information sharing capabilities.
    One of the consequences of these improved State and local 
capabilities is increased demand for services and access to the 
underlying and unifying FBI systems and connectivity. For fiscal year 
2008, the FBI is requesting a total of $90.5 million to improve its 
capacities and capabilities for providing forensic, identification, and 
information technologies and services for law enforcement, including 
IDENT/IAFIS Interoperability ($10.0 million); Next Generation 
Identification ($25 million); Law Enforcement Information Sharing/R-DEX 
($5 million); DNA forensic services, including Walsh Act implementation 
($14.6 million); Combined DNA Index System ($7 million); Regional 
Computer Forensic Laboratories ($6 million); and Computer Analysis 
Response Teams ($22.8 million).
        strengthening infrastructure and information technology
    Critical to the success of the FBI mission are a safe and 
appropriate work environment and information technology (IT). Over the 
past several years, the FBI has made substantial investments to upgrade 
its underlying IT architecture, including the purchase of computer 
workstations and software for employees and networks for connectivity 
both within the FBI and with our external partners. Having made these 
investments to bring IT in the FBI to near current state-of-the-art, it 
is now necessary to keep these investments current with technology.
    The fiscal year 2008 budget includes $15 million to provide 
enterprise IT support and prevent IT obsolescence. This funding will 
enable the FBI to address increased costs of software license/
maintenance agreements, upgrade networks and encryption to comply with 
mandated intelligence community protocol, and begin bringing desktops, 
laptops, servers, and printers into a 3-year technology refreshment 
cycle.
    Additionally, $7.5 million is requested to continue to build and 
strengthen the FBI's IT program management capabilities. The Inspector 
General and others have repeatedly criticized the FBI for ineffective 
program management of IT projects. Funding requested will enable the 
FBI to increase management and oversight of critical IT projects, 
ensure compliance with FBI Life Cycle Management Directives, and 
enhance FBI IT policy and planning capacities.
    The FBI requests a total of $11.5 million to address critical space 
requirements, including $7.5 million for fiscal year 2008 requirements 
associated with the FBI Headquarters (HQ) Annex and $4 million for the 
Central Records Complex (CRC). The FBIHQ Annex will provide additional 
office space to ease existing fragmentation of headquarters divisions 
and offices. This funding will support the build-out of annex space, 
including furnishings, UNet and FBINet connectivity, equipment, locks, 
alarms, and access control. The CRC will consolidate most of the FBI's 
records, which are currently dispersed in FBI locations across the 
Nation, into one single facility. The funding requested will support 
non-standard requirements associated with the construction of the 
permanent CRC facility, such as fencing, vehicle barriers, and guard 
booths. Construction of the CRC, a GSA build-to-suit/leased facility, 
is planned to begin in fiscal year 2008.
                       ``unfunded fte'' reduction
    The fiscal year 2008 budget reflects a reduction of 2,700 positions 
(576 special agent and 2,124 professional support) for the FBI. This 
reduction is part of a Department of Justice-wide effort to remove 
``unaffordable work-years'' and to recast positions and work-years 
consistent with available funding. Let me assure you that the 
``unaffordable work-years'' reduction is being targeted against vacant 
positions and that no on-board FBI employee's position will be affected 
by this action. The underlying causes for the accumulation of 
``unaffordable work-years'' are the results of both internal workforce 
management decisions by the FBI and external decisions on the Bureau's 
budget.
                               conclusion
    Madam Chairman, Senator Shelby, and members of the subcommittee, 
today's FBI is part of a vast national and international campaign 
dedicated to defeating terrorism. Working hand-in-hand with our 
partners in law enforcement, intelligence, the military, and diplomatic 
circles, the FBI's primary responsibility is to neutralize terrorist 
cells and operatives here in the United States and help dismantle 
terrorist networks worldwide. Although protecting the United States 
from terrorist attacks is our first priority, we remain committed to 
the defense of America against foreign intelligence threats as well as 
enforcing Federal criminal laws while still respecting and defending 
the Constitution.
    I recognize that the fiscal year 2008 request will require 
difficult decisions with respect to meeting the competing demands among 
the Department of Justice components as well as those of other 
agencies. At the same time, even in times of fiscal restraint, there is 
a strong public expectation that the government provides our Nation's 
safety and security. Protecting the Nation from terrorist attacks, the 
threat of WMD, foreign intelligence agents, and violence requires a 
strong and well-resourced FBI.
    I ask for your support in providing the resources requested in the 
fiscal year 2008 budget so that we can fulfill our mission to safeguard 
the American people. I look forward to working with you on this budget 
proposal and other issues.
    Once again, I thank you for your continued support of the FBI. I am 
happy to answer any questions you may have.

    Senator Mikulski. Thank you very much, Mr. Director, and 
we're going to follow very closely our time. I'm going to get 
right to my questions. I'm going to go into three areas. The 
FBI fighting crime, the FBI fighting terrorism, and then making 
sure that the FBI has an accountability system for, not only 
Sentinel, but also the national security letters, where there 
seems to have been a big problem.

                             VIOLENT CRIME

    I'd like to go right to the violent crime issue because, 
again, we'll come back to the fact that you're two agencies, 
but you're one agency. Violent crime is on the rise, we've 
heard about the data. Robbery is up 9 percent, aggravated 
assault is up. It's not just about the crime, it's also who's 
doing the crime, the new gangs, and the threat of meth.
    As I looked at your budget, 60 percent of the FBI's money 
goes to counterterrorism, counterintelligence, and the intel 
function. Thirty-four percent goes to traditional crime-
fighting responsibilities. My first question is, is that the 
right ratio? Or is it that as we scrambled to fight the global 
war against terrorism and the massive need to shift resources, 
have we kind of left fighting crime a little bit behind? What 
would you say would be the actual resources you need, or are 
they pretty well amplified in this statement?
    Mr. Mueller. First of all, let me say the percentage that 
you give in terms of dollars may be roughly accurate. I will 
tell you that in terms of agents assigned to national security 
responsibilities as opposed to the criminal responsibility, 
it's almost 50/50 on the street. I will tell you that since 
September 11, understandably I believe, we have taken 
resources--substantial resources--from the criminal side of the 
house to address the counterterrorism mission. We have tried to 
establish priorities that maximize our capabilities to augment 
State and local law enforcement and other authorities in 
particular areas.
    I have always believed that when it comes to violent crime, 
the FBI should play a substantial role, because of our 
capabilities of reaching across jurisdictions. And, we have set 
up, as I----
    Senator Mikulski. But Director, do you feel that the 
President's budget is enough for you and your agents and 
analysts, and so on, to do the job of fighting crime and having 
the important linkages to local law enforcement with the unique 
role the FBI plays?
    Mr. Mueller. I believe at this juncture, we ought to 
revisit, as will happen through the budget process--normally 
within the administration, with the Department of Justice, with 
the Office of Management and Budget (OMB), but also with the 
subcommittee, our allocation of resources, given the uptick in 
violent crime with the possibility, given the budget 
constraints, of augmenting the FBI. I absolutely believe that 
we would benefit from additional resources.
    Senator Mikulski. Once we have this information, we'll talk 
with you about that in more detail.

                               TERRORISM

    Let's go to the global war against terrorism. One of the 
things that I've noted, that in addition to the very important 
intel function that you perform, that you're also now playing a 
very important role in the issue of weapons of mass 
destruction, some of which is too sensitive for a public 
hearing.
    But again, our question is--this requires very 
sophisticated people. These are people that require enormous 
scientific and technical backgrounds often more usually found 
in the Department of Defense (DOD), and it also takes a lot of 
money to do this. Could you share with the subcommittee, that 
as you do the surveillance and things that are important 
domestically and internationally, what about this new role of 
fighting the weapons of mass destruction? Should it be with 
you? And do you have the resources that you need to do this?
    Mr. Mueller. Well, responding to an attack of weapons of 
mass destruction in the United States is a responsibility of 
the FBI. I think it is appropriately a responsibility of the 
FBI, in large part because of the extent of integration we have 
with State and local law enforcement around the country, our 
presence around the country, and the expertise that we develop 
in this arena, some of it at Redstone Arsenal, as pointed out 
by Senator Shelby. So, I do believe we should have this 
mission.
    But it is an expensive mission. It requires contributions 
from a number of different skill sets and, as the Senator is 
well aware, those who are on the intelligence side of the house 
as well as this side of the house understand that we have 
requested substantial funding in that regard and my 
understanding is we're getting substantial funding to assist in 
that. But it is an expensive proposition, but I do believe we 
appropriately have that mission.
    Senator Mikulski. Well, my time has expired and I want to 
go by the rules. I would just like the subcommittee to 
understand, the FBI has now been given a very important 
responsibility, which is to, number one, make sure that a 
weapon of mass destruction does not fall into the hands of 
people who would want to use them in the United States of 
America. This is a pretty big job, against chemical, 
biological, and nuclear, big and small.
    Mr. Mueller. That's correct.
    Senator Mikulski. That's a pretty big deal. Then, in 
addition, there is something that is in your materials and that 
is an open document, but Senators could also get a briefing on 
this, called Render Safe, which means the FBI has also the 
job--that if a nuclear weapon, big or small, is detected, their 
job is to defuse it. This is big deal and it, and again, 
requires enormous sophistication.
    And, then also, for those who would want to bring these 
despicable and horrific weapons into our country, or seize them 
within our country, the stress, and the number, and the 
scientific and technological capability, even for surveillance 
is pretty significant. So, this isn't J. Edgar Hoover's FBI any 
more. And it's not like, let's hear a hoo-hah for gumshoe. So, 
we're talking about one, fighting gangs, dealing with meth, 
partnering with local law enforcement, and then these very 
sophisticated things.
    I'm going to yield now to Senator Shelby, but I would hope, 
also, that perhaps Senator Leahy will be picking up on the 
question of those national security letters.
    Senator Leahy. We are, yeah, we are.
    Senator Mikulski. Okay, thank you. Because that was a 
question I was going to go into.
    Senator Shelby.

                       NATIONAL SECURITY LETTERS

    Senator Shelby. Director Mueller, the inspector general 
issued a report critical of the FBI's use of national security 
letters. While I understand the critical need for these tools, 
the lack of supervision in the use of the national security 
letters and exigent letters is very troubling. Can you tell us 
what steps you're taking to correct the deficiencies and when 
those steps will be completed? You've testified previously that 
you would prefer administrative subpoena authority in 
counterterrorism cases to the existing national security 
letters (NSL) authority. Why do you prefer one tool over the 
other?
    Mr. Mueller. Let me start with what steps we've taken to 
address the issues with regard to NSLs.
    One of the first immediate steps we took was to expand on 
the audit that was done by the inspector general and to go 
across the country. I had 150 special agents, inspectors, visit 
every office to look at the use of national security letters. 
They have come back with information relating to the use around 
the country. I do not believe that, in the end, as we go 
through the information, there will be any startling 
differences between what we found and what the IG found. But 
nonetheless, it enables us to look at potential problems with 
more particularity.
    We are reviewing those findings now and my expectation is 
that, in working with the IG in the next several weeks, we will 
have some conclusions from that 10 percent audit. We are going 
back and looking at the numbers reported, our software and 
databases, to determine how we can retroactively identify, with 
more precision, the numbers that may have been left out. And 
again, we are working with the IG on that.
    I would say the third, well, let me talk about the third 
area, and that's the exigent letter issue. We have undertaken a 
joint investigation with the inspector general to determine how 
this happened, who was involved, and to make recommendations as 
to what further steps must be taken as a result of our 
findings. Again, it's a joint investigation with the inspector 
general. I think that will take several weeks, if not months, 
to follow-up thoroughly on that.
    Most importantly, what we did not have in the FBI was a 
compliance system, a compliance program. Large corporations 
have compliance programs. And, we had put into place 
procedures, but we had no way of assuring, on a daily basis, 
that those procedures were being followed.
    The $10 million that you mentioned in your opening remarks, 
with regard to following up on the NSL issue, will be used to 
establish a compliance office, reporting to the highest levels 
of the FBI, and addressing--not just the issues that we found 
with NSLs--but other issues to make certain that, whether it be 
NSLs or other circumstances, where Congress has given us the 
capabilities, that we are handling them appropriately, that the 
reporting to Congress is accurate and to make certain that what 
happened with NSLs does not happen again. And, I look at this 
as not just addressing the NSL issue, but addressing other 
issues within the Bureau that we can anticipate better and 
address, before the inspector general or Congress needs to 
address them.
    The last step I would say that we're taking is 
understanding--and agreeing with--the concerns of privacy 
groups, legitimate concerns, about the use of NSLs. We have 
undertaken outreach to the privacy groups and the civil 
liberties groups, to explain what steps we're taking and to get 
input. We may not always agree and, quite obviously, there'll 
be occasions where we disagree, but we will have a dialogue as 
to how we can do better in this regard, and have elicited input 
from these privacy and civil liberties groups. Those are the 
five steps that we are taking.
    Senator Shelby. What would--you mentioned administrative 
subpoena authority in counterterrorism cases.
    Mr. Mueller. One of the issues with the national security 
letters is the authorities are spread across a number of 
statutes. The predication for it and understanding the use of a 
particular NSL may depend on the type of records requested and 
falls under separate statutes. Administrative subpoenas would, 
hopefully, put in one place this authority. It would give, as 
the latest iteration of the Privacy Act has given, the right 
for somebody to contest it, as well as us to enforce it. And, 
so my hope would be that the administrative subpoena process 
would replicate, somewhat, the NSLs, but be much simpler for us 
to operate under.

                             BUDGET REQUEST

    Senator Shelby. Mr. Director, can you tell this 
subcommittee if the 2008 budget request, in your judgment, 
would meet your current operating needs?
    Mr. Mueller. My belief is there should be further 
discussion with the Department of Justice, with OMB and also 
with this subcommittee, as to the budget, because circumstances 
have changed in the last couple of years that, in my mind, 
warrant a revisiting of the issues.
    Senator Shelby. Madam Chairman, I have a number of 
questions that I would like to--because of the interest of time 
and the Director's schedule--submit to the record, for the 
record, that I think are important.
    Senator Mikulski. Without objection.
    Senator Shelby. Thank you.
    Senator Mikulski. Thank you very much.
    Mr. Mueller. Can I add one thing? I'm sorry.
    Senator Shelby. Sure.
    Mr. Mueller. In response to Senator Shelby's last question, 
in terms of the budget formulation, one of the things we've 
been asked to do, and believe it's important to do, is have a 
strategy in the Bureau, a long-term strategy. Not a year-to-
year strategy, but a long-term strategy.
    We are looking at budget requests over a 5-year period and 
believe that, for us, we should be on a 5-year cycle of budget 
requests. And, as we have developed the strategy, we are 
putting in place the requests over a 5-year period. That also 
will help, I believe, in supporting the discussion as to the 
budget request for 2008.
    The last point I'd make, I have to correct myself, I said 
the Privacy Act, I did mean the Patriot Act, in terms of the 
changes of the abilities of persons to contests NSLs and for us 
to enforce them.
    Senator Shelby. A 5-year budget plan would help you to plan 
more readily, would it not?
    Mr. Mueller. It would.
    Senator Shelby. Thank you.
    Senator Mikulski. Well, not only a 5-year budget plan, 
which we would certainly recommend because we could then look 
at how to pace this. But also the fact, that when we look at 
the funding of the intel agencies, you have to have more 
visibility to be at the table.
    Let me turn to Senator Leahy and, subcommittee members 
we'll come back for a second round. Senator Leahy.
    Senator Leahy. Thank you, Madam Chair. I had the privilege 
of serving on the Appropriations Committee and also, as the 
Director knows, I serve on the Judiciary Committee. And, I just 
want to take this opportunity to note, the Judiciary Committee 
still has not received answers to the written questions that we 
gave in connection with your March 14 appearance, or your 
appearance last year on December 6.
    Now, I understand that your responses have been submitted 
to the Department of Justice. That's all well and good, but we 
still don't have last year's responses or this year's 
responses. I don't think you would tolerate this kind of 
response time in FBI investigations.
    Before you leave, I will give you a copy and resubmit these 
as questions from the Appropriations Committee. Maybe that will 
help you get it through the Department of Justice quicker, 
because their budget will also come before this subcommittee.
    I've also raised with the Attorney General why they take so 
long clearing your answers to get them to us. We found last 
week that we will not get answers from him, but I would like to 
at least get answers from you.

                                SENTINEL

    Now, we're a year into the Sentinel computer upgrade, the 
costs go up all time. The FBI informed the Judiciary Committee 
you'd encountered unexpected problems with the deployment of 
phase one that could delay it. What is the current status of 
Sentinel? Do you anticipate additional delays, or cost 
overruns?
    Mr. Mueller. We are on budget, in fact we're under budget 
at this juncture on the first phase of Sentinel. In terms of 
the time, as I indicated in my opening remarks, we had hoped 
that we would start deployment in April. It looks like it will 
be deployed next month.
    We are in the final stages of the approval process with the 
contractor on phase one. One of the mistakes made by me, I 
would say early on, in terms of the computers, was pushing the 
process and the schedule. I had pushed hard, but I want to make 
certain that when it is deployed--my expectation is next 
month--that it works. I meet every week with the Sentinel team. 
I monitor it.
    Senator Leahy. That's just phase one. That's phase one.
    Mr. Mueller. Phase one. That is phase one. Now phase two, 
which is the more--in some senses, is the more important 
phase--because it addresses more of our business practices. We 
have started the planning on phase two. And we will have to--
there are a number of lessons we learned in phase one that 
we'll have to implement in phase two.
    Senator Leahy. When do you think phase two, the more 
important part, will be fully deployed?
    Mr. Mueller. I cannot give you an answer now on that.
    Senator Leahy. This year?
    Mr. Mueller. I would be concerned in giving you an answer.
    Senator Leahy. But you don't see it as happening this year?
    Mr. Mueller. Not this year. The original expectation was it 
would take another year to 18 months after the deployment of 
phase one to deploy phase two. But one of the things we learned 
in the development of phase one is that some of the things we 
anticipated deploying in phases two, three, and four, could 
better be moved up and other aspects of it moved down to phase 
four. Consequently, we are reviewing the lessons learned in 
phase one and over the summer and the fall we'll be determining 
how we proceed with phase two, three, and four.
    But, at this point, we have no belief that it is over 
budget or will be over budget. We have every belief, at this 
juncture, that we can do it under budget, in the timeframe that 
was originally set out for Sentinel.
    Senator Leahy. Well, are you still using Computer Sciences 
Corporation and CACI International?
    Mr. Mueller. No. Lockheed Martin is our contractor on 
Sentinel.
    Senator Leahy. Were Computer Sciences Corporation and CACI, 
in any way, part of the Sentinel contract team?
    Mr. Mueller. There was one aspect--let me just check--there 
was one aspect that one of the corporations that was involved 
in Virtual Case File is involved with Sentinel. I believe it 
was training, but it was a separate company, not part of the 
original company handling Virtual Case File. That is the case, 
there is one business element of one of those companies, at 
this point, that has a small role in Sentinel.
    Senator Leahy. Which one?
    Mr. Mueller. I believe it's, and I'd like to get back to 
you and firm it up, but I think it's Computer Sciences 
Corporation, it was bought by DynCorp.
    Senator Leahy. Well, please fill that for the record. 
Because I think if Computer Sciences and CACI were involved in 
the failed Virtual Case File project, I would hate to see them 
involved again. I'm also going to ask questions for the record 
on the integrated wireless network, 6 years in development, 
$195 million already being spent, an anticipated overall cost 
of $5 billion, and nobody has anything that works yet.
    [The information follows:]

           Sentinel Contractors Involved in Virtual Case File

    Two vendors are common to both Trilogy and Sentinel: 
Computer Science Corporation (CSC) and CACI. The division of 
CSC that worked on Trilogy, however, was part of a separate 
company at the time and not acquired by CSC until after the 
Trilogy contract ended. Furthermore, the after-acquired 
division of CSC will not be working on Sentinel, thus we 
anticipate little or no overlap of services or personnel. We 
have contracted with CACI to provide training for Sentinel, 
which was also CACI's role in the Trilogy contract. Training 
was not an issue in the execution of the Trilogy contract.
    The FBI has strengthened its internal controls to avoid a 
repeat of problems experienced with Trilogy. Among other 
things, we have improved our contract oversight in two major 
ways. First, the Sentinel contract has clear reporting 
requirements and severable deliverables. In other words, we can 
stop work if we are not satisfied with a contractor's progress. 
Second, we have structured our contract management with clearly 
defined roles and responsibilities, so accountable personnel 
are reviewing all documentation and expenses. That process will 
be supplemented by internal audits of our financial management, 
as well as external oversight from Congress and the 
Administration.

    Mr. Mueller. Can I respond briefly, Senator, if we have 
time? The Trilogy project was, as you know, three pieces. The 
networks, the computers, and two-thirds of it was successful, 
the other third was not successful. But I will also say in the 
development of the Sentinel project, we have had the inspector 
general review us day in and day out, and the Government 
Accountability Office (GAO), and we have endeavored to keep the 
committees apprised of the status of Sentinel, offering weekly 
briefings, now giving bi-weekly briefings, too, so that there 
is no miscommunication in terms of where we are at any 
particular point in time in the development of this project.
    Senator Leahy. Thank you, Madam Chair.
    Senator Mikulski. Thank you, Senator Leahy. You know, 
what's so great is, on our subcommittee now, we have the 
chairman of the Judiciary Committee, who has oversight of the 
FBI. We welcome you and your expertise.
    Senator Leahy. You might think it's greater than some of 
the witnesses might.
    Senator Mikulski. And Senator Kohl is also a member of the 
Judiciary Committee. Senators, I think the Director would also 
be wiling to brief both you and also your Judiciary Committee 
staff about the status of Sentinel. I think you'd be heartened 
about the progress.
    Senator Leahy. He does, he does.
    Senator Mikulski. Okay, thank you.
    Senator Kohl.
    Senator Kohl. Thank you, Madam Chairman.

                             VIOLENT CRIME

    Director Mueller, violent crime, as you've said, is on the 
rise across the country. When we ask State, local, and Federal 
officials in all our communities what needs to be done to get 
this problem under better control, they all give the same 
answer. They ask for greater Federal funding for State and 
local law enforcement. This administration is not giving our 
law enforcement officials the help that they need.
    For example, in Wisconsin, our share of Byrne funding went 
from more than $9 million in fiscal year 2002, all the way down 
to less than $3 million in fiscal year 2006. As a result of 
cuts to the COPS hiring programs, support to Milwaukee's Police 
Department to put more cops on the beat, went from more than $1 
million in 2002, down to zero these past 2 years.
    It's no surprise that the rise in violent crime has come on 
the heels of reductions in this administration's financial 
assistance to State and local law enforcement.
    Mr. Director, don't you agree that more Federal support for 
local law enforcement would greatly help our local communities 
in the battle against violent crime?
    Mr. Mueller. Well, I certainly am supportive of funding for 
State and local law enforcement from a variety of sources, 
including Federal. And, I would tell you that I believe that we 
work most efficiently when we work together with our State and 
local counterparts.
    And, what I'd like to see is the funding tied into working 
in task forces. We have 131 Safe Street task forces around the 
country. It harnesses our ability to reach across jurisdictions 
to obtain evidence, to provide forensics help and the like, but 
also provides the prioritization of what needs to be addressed 
in the community and a task force concept, I think, is 
tremendously important when you address gangs and some of the 
contributing factors to violent crime.
    So, I am, I have been and will continue to be, supportive 
of enhanced funding to State and local law enforcement in hopes 
that that funding will also be tied to participation on task 
forces, so that we maximize our work together.
    Senator Kohl. Well is this an ongoing kind of a process? 
Because, as I said, the direct funding for things like Byrne 
and COPS has gone down. Has it been augmented in some other way 
to local law enforcement?
    Mr. Mueller. Again, I am supportive of funding the State 
and local law enforcement.
    Senator Kohl. Right.
    Mr. Mueller. And, I'll leave the details up to the 
Department of Justice, that is the conduit for those grants.
    Senator Kohl. But the problem is so severe out there, you 
know, that the question of where does it come from is not 
nearly as important as getting the money out there so that our 
local law enforcement people can do their job more effectively. 
Not 2 or 3 or 4 years from now, but yesterday and today. Isn't 
that true?
    Mr. Mueller. I am absolutely supportive of funding for 
State and local law enforcement and, as I said I believe, I am 
also supportive in the context of doing it so that we work 
together.
    What we find, I will tell you, is it is increasingly 
difficult for State and local law enforcement to assign 
personnel to task forces because of the reduction in personnel. 
My belief is that task forces are tremendously important, and 
we ought to focus on the funding for State and local law 
enforcement in such a way that it enhances our joint efforts to 
address violent crime or counterterrorism or other threats, 
including cyber-crime and crimes against children, in a way 
that enhances our ability to work together and serves as an 
incentive for us to work together.

                              COPS PROGRAM

    Senator Kohl. All right. Just talk about the COPS program 
and get some comment from you. The overall COPS program was 
funded just a few years ago at more than $1 billion and this 
year the President's request for $32 million really means, 
basically, the end of the program. Last year in my home town of 
Milwaukee, the police department had approximately 200 
vacancies in an ideal force of 2,000. We used to have a program 
to deal with that problem and it was called, The Cops Universal 
Hiring Program. And, that program was instrumental at reducing 
crime in the 1990s.
    Unfortunately that program has been entirely eliminated in 
this administration. So, would you agree that we need a new 
commitment to the COPS program? Especially when we're 
witnessing a surge in violent crime in our mid-size cities and 
other sized cities all across our country. Don't you agree that 
we need to increase Federal funding in order to help put more 
police on the streets?
    Mr. Mueller. Without regard to a particular program, I am 
supportive of enhanced funding for State and local law 
enforcement, particularly funding to working cooperatively 
between ourselves, the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF), and the Drug Enforcement Administration 
(DEA), without regard to a particular vehicle.
    I think the vehicle is less important than the fact that we 
address the threats that are out there, when it comes to the 
uptick in violent crime. I attended a meeting a couple days ago 
at the National Academy of Sciences. One of the issues 
discussed by a number of very influential and capable 
professors from around the country was why this uptick. You can 
look at the statistics across the Nation, but then every 
community is somewhat different.
    What you do not want to do is, necessarily, just throw in 
resources without understanding what the problem is, what the 
solution is, and then assign those resources to effect that 
solution.
    In my own mind, most of the threats cross jurisdictional 
borders now. The solution comes from working together, 
ourselves with State and local law enforcement. To the extent 
that local communities cannot afford the participation of State 
and local law enforcement on task forces, I believe there has 
to be a mechanism someplace, through some vehicle, so that 
there is an incentive for us to work together and that we 
address these issues, together, as opposed to addressing them 
individually. Because I think we're far more effective when we 
do it jointly.
    Senator Kohl. I thank you so much.
    And, I thank you, Madam Chairman.
    Senator Mikulski. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    And, thank you, Director Mueller, for being here and for 
providing the leadership that you do for this important arm of 
our protection and safety in our society.
    Oddly enough, Senator Kohl, my friend and colleague, hit on 
the subject, COPS. And, as I was looking over my notes, the 
thought occurred to me and I found out that at one point there 
were 120,000 police on the streets, 5,000 in my State of New 
Jersey from COPS. And, then your notes, Director, in your 
comments you say access to local law enforcement partners in 
the fight against violent crime, access to these crime-solving 
services and capabilities are more important in a post-9/11 
environment. So, it's hard to understand why that program might 
be eliminated when we need all the help we can get.

                           GUNS TO TERRORISTS

    Let me get on to something that's come about. A GAO report 
that I requested in 2005 revealed that 35 known or suspected 
terrorists bought guns in a 5-month period of 2004. And, then I 
asked you to review what legislative changes might be needed, 
and you wrote me in March 2005--so, we're looking back more 
than 2 years--that Department of Justice create a working group 
to look into this.
    Yesterday, the Department of Justice sent me, Vice 
President Cheney, and House Speaker Pelosi, a proposal to give 
the Attorney General the discretion to deny guns to terrorists. 
Do you think 2 years to move on something as sensitive and as 
helpful as this could be, borders on either outright neglect or 
lack of interest in the proposal? Should known terrorists be 
allowed to buy guns at all?
    Mr. Mueller. I can't speak to the delay, Senator. I think 
before one reaches any conclusion as to the delay, one would 
want to know what kind of dialogue there has been, whether it 
be within the administration, or between the administration and 
Congress. I see it was submitted yesterday. I would ask the 
opportunity to go back to look at this and then, to the extent 
that you have further questions in terms of what this 
legislation does, I'd be happy to answer them.
    Senator Lautenberg. Okay. But, and the last part of my 
question, should one's name on a terror list be sufficient 
evidence to not allow a gun to be purchased? What do you think?
    Mr. Mueller. I think it depends on the circumstances. There 
are gradations. I do not want guns in the hands of terrorists. 
You look at what happened at Virginia Tech recently, and it 
calls for a revisiting of the legislation, not just at the 
national level, but at the State level in terms of the 
production of medical records and particular mental health 
records----
    Senator Lautenberg. Okay. Thanks.
    Mr. Mueller [continuing]. When it comes to purchasing a 
weapon.
    Senator Lautenberg. Thanks, Mr. Mueller. The one thing that 
we do know is that you're an intelligent, educated man, and I 
find it surprising that we can't get a specific answer that 
says, ``No, they're terrorists.'' If you were good enough to 
use a somewhat humorous description, to get, to make it to the 
terrorist list and you can still buy a gun in this country, I 
think that suggests that there's a weakness there someplace.

                 BACKGROUND CHECKS TO INVESTIGATE CRIME

    I want to get on to something else. Would there be any 
value, Mr. Mueller, to permit law enforcement to use background 
check records to investigate crime, perhaps even in the case of 
terrorism?
    Mr. Mueller. I'm somewhat uncertain of the question.
    Senator Lautenberg. Well, that is----
    Mr. Mueller. Because, quite obviously, we use background 
information, to investigate allegations of terrorism.
    Senator Lautenberg. All right. Let me go to the little, 
expansion of that. Do you think that destroying records that 
were used in approving a gun purchase in just 24 hours, is a 
good idea? Perhaps you can explain--well, let me get the answer 
to part a, then we'll go to part b.
    Mr. Mueller. Well, I know there's been substantial debate 
on how long records are retained. There's a substantial 
argument in my mind for retaining records for a substantial 
period of time, but this is an area where the policymakers will 
advise and then we will follow.
    Senator Lautenberg. Fair enough. I'm glad that you concur 
with my view. Okay.
    Thank you, Madam Chairman. Thanks.
    Senator Mikulski. Thank you.
    Well, Director, we are moving expeditiously to get you to 
where you need to go.
    Mr. Mueller. Thank you.
    Senator Mikulski. I have two questions, one related to 
intelligence analysts and then the other to what we need to be 
able to train them.

                         INTELLIGENCE ANALYSTS

    I am tremendously impressed with the FBI intelligence 
analysts that I've met, both overseas and here. But here goes 
to my questions. Two years ago, the IG released a report that 
nearly one-third of the intelligence analysts positions were 
unfilled because of rapid turnover and other problems and also, 
at that time morale was low, and there was a difficulty in 
retention. Can you tell us what you've been able to do over the 
last 2 years with the issues raised by that? Do you remember 
that?
    Mr. Mueller. Yes.
    Senator Mikulski. And, then what are you doing to improve 
the training and retention of the intel analysts, particularly, 
you know, you had the agents on the street, but it is the 
analyst that's supposed to help the policymakers and the 
enforcers to connect the dots.
    The so-called ``connect the dot'' problem.
    Mr. Mueller. We have tremendously talented analysts. We've 
doubled our analyst cadre since September 11, and the 
qualifications and capabilities of the analysts are superb. 
They have become an indispensable asset not just at 
headquarters, but in every office around the country.
    The inspector general recently had a further report, in 
which, it was pointed out that we had a shortfall of 400 
analysts in 2006 that we had not brought onboard. He indicated 
part of it was attributable to the length of time it took to 
get an analyst onboard. But, I will tell you, part of it, also, 
was our recalibration of our strength in what was called 
``hollow work-years'' that had developed over a period of time. 
And so, we have a shortfall, currently, of approximately 160 
analysts who we're trying to bring onboard. And, we will over 
the next months and into next year.
    The delay in bringing people onboard that the IG mentioned, 
as well, is in some part attributable to the fact that we want 
to give them training. We want them to start the job with the 
training, and without slots for the training, we're delayed 
longer than we would like. And, I will tell you also, we are 
revamping the training. We have continuously done so--
particularly in the wake of September 11, but we continue to 
revamp the training to make it more successful, I will tell 
you, more effective.
    The other thing that the IG, I think, pointed out is that 
most of the analysts we brought onboard are exceptionally happy 
working at the FBI, enjoy their job, anticipate staying, so 
we're not, we are not where we would like to be. I'm not 
certain we would ever be there. I think we've made substantial 
strides with the analytical cadre.
    Senator Mikulski. Yes, because that will go to training in 
Quantico.
    Senator Shelby, you want to jump in here?
    Senator Shelby. Director Mueller, we realize it's--it's 
difficult and tedious to train analysts and, but in the 
recruitment area, because--how are you doing there? Because 
you're recruiting in the marketplace with everybody else?
    Mr. Mueller. Very well, very well.
    Senator Shelby. And, that's very important.
    Mr. Mueller. In the training, we have structured training 
so the analysts train with the agents for much of their time at 
Quantico, so there is an understanding of the kind of 
contributing skills that make us more successful.
    The fact of the matter is, as the organization grows, the 
credibility and the capability of the analysts will impress the 
rest of the organization and bring us into more of a team than, 
perhaps, we've been in past years. And, both through the 
training, the working together, and the types of cases, whether 
they be intelligence or criminal that we're working, I think 
we're making strides there.
    Senator Shelby. Thank you.
    Thank you, Madam Chairman.

                          TRAINING AT QUANTICO

    Senator Mikulski. Which takes me to Quantico. Because all 
FBI agents and analysts, regardless of their responsibility are 
trained at Quantico, am I correct?
    Mr. Mueller. Well----
    Senator Mikulski. Well, is it prime? Is my question.
    Mr. Mueller. All agents are trained at Quantico. There are 
areas of training that we do outside of Quantico, but certainly 
all new agents and analysts go through Quantico.
    Senator Mikulski. Right. So, but, Quantico is the starting 
point?
    Mr. Mueller. It is.
    Senator Mikulski. It is the starting point. Now, from what 
I understand from staff visits to Quantico, that Quantico 
because of when it was built, its original mission, which was 
the pre-9/11 FBI, that this is pretty dated, both in terms of 
being able to handle the number of people you wish to train, 
and what is required in unique training facilities now, with 
technology, et cetera. Could you share with the subcommittee 
what you think we need to do to help you, to kind of, 
reinvigorate Quantico? So that when these talented people come 
to serve, and you have the curriculum to do it, that we're all 
helping you move in the direction we want you to move in?
    Mr. Mueller. We've had problems with the buildings at 
Quantico. It's years and years, I can't tell you exactly, but 
tens of years old. We've had problems, for instance, with 
information technology and instituting it there because it was 
not set up with the modern capabilities.
    As we look 5 years down the road to the FBI, training is 
going to have to be expanded at Quantico, but also other places 
in the country. One of the gems, the jewels of the FBI is the 
National Academy, where every year we educate somewhat more 
than 1,000 State, local and, as important if not more 
important, foreign officers who become colleagues of ours, and 
my hope is that we could expand the National Academy. Because I 
think it's a jewel and it's tremendously important to the 
United States, not just domestically to have the capacity, but 
for the intersection of ourselves and the future with our 
counterparts overseas, to have that type of, not only dialogue, 
but building of relationships.
    So, whether it be National Academy, the agents, the 
professional staff, analysts, we are going to be looking at our 
5-year plan for expanding--not just renovating at Quantico--but 
looking at opportunities elsewhere as well.
    And, we cannot continue to build a national security 
function, and continue to do what we do on the criminal side 
without enhanced facilities.
    I will make one last plea, if I could, and that is, we are 
asked to be and appropriately so, I believe, the domestic 
intelligence agency for national security.
    Senator Mikulski. That's a pretty big deal.
    Mr. Mueller. Part of the intelligence community. We have a 
single funding stream that comes through Commerce, Justice, and 
Science, as opposed to being looked, from the funding 
perspective, as part of the intelligence community. And, my 
request is that, if we have the responsibility and the role 
that I believe we should have, we should be looked at as a 
member of the intelligence community from the perspective of 
funding.
    Senator Mikulski. You mean through an intel authorization?
    Mr. Mueller. Yes.
    Senator Mikulski. Well, you know we can't get one through 
the Congress, so you actually get a better deal coming through 
us. We hear what you say.
    Mr. Mueller. Well, when I look at the various budgets, I'm 
not----
    Senator Mikulski. Well, no, we understand that it, and 
again, this is an environment we can not discuss it.
    Mr. Mueller. Right.
    Senator Mikulski. Senator Shelby chaired the Intel 
Committee and, of course, I'm a very proud member. And, 
Director, we would suggest that this is something we three 
could talk about, about what is the most effective way.
    One quick question. When is this 5-year plan going to be 
done?
    Mr. Mueller. I believe we could start briefing you on it, 
probably, in a month.
    Senator Mikulski. Well, one of which, too, will be the 
issue related to facilities because if we have to get started, 
then those things, as you know, are an extensive look ahead. 
So, we'll look forward to that.
    But, listen, we promised you you'd be on your way and we 
want to thank you today for your testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, Senators may submit 
questions for the record. We would appreciate the FBI's written 
response within 30 days. We, Mr. Director, we look forward to 
an ongoing conversation with you, once we get our allocation 
and so, we want to get you on your way.
    And, we say to Eleni and Paul, good luck as they go on 
their new ways.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted By Senator Patrick J. Leahy
                                sentinel
    Question. Now a year into the Bureau's Sentinel computer upgrade 
program, I remain concerned about the prospect of this program and its 
ballooning costs to American taxpayers. Last month, the FBI informed 
the Judiciary Committee that it had encountered unexpected problems 
with the deployment of Phase 1 of the Sentinel program that would delay 
the program. Even more troubling, the FBI could not tell Judiciary 
Committee staff how long it would take to remedy these problems, or how 
the delay would impact the overall schedule for Sentinel.
    Director Mueller, what is the current status of the Sentinel 
program and do you anticipate that there will be additional delays in 
deploying the program or costs overruns?
    Answer. The FBI has implemented Phase 1 of the Sentinel Project and 
our agents are now using it. The prime contractor, Lockheed Martin, has 
completed the design, development, and testing of the Phase 1 
functionality and the FBI administered a two-week system acceptance 
test, which was followed by user acceptance testing. The system was 
then incrementally deployed and piloted in the Baltimore, Washington, 
and Richmond Field Offices and in one Division at FBI Headquarters 
(FBIHQ). In addition to testing the system's functionality, the pilot 
also assisted in testing the load of users on the system and in 
assessing the adequacy of the training materials.
    After changing the deployment approach to allow for a pilot period, 
the system was delivered to all users. Changes in the deployment 
approach and delivery schedule were made to ensure an accurate 
measurement of performance by testing it with actual users, rather than 
through controlled testing.
    The Sentinel Program Management Office and Lockheed Martin prepared 
users for training and deployment, training nearly 250 field office and 
FBIHQ users as Sentinel Training Advisors. This group is assisting 
contract instructors in providing training and assisting users in their 
divisions when questions arise. The training curriculum and materials 
continue to be refined to incorporate system updates and trainee 
feedback.
    Question. What impact have the delays with Sentinel--and Trilogy 
before it--had on the Bureau's ability to fulfill its core mission?
    Answer. The delays in updating the FBI's computer systems have had 
very little impact on the Bureau's ability to fulfill its core mission. 
All components of the FBI's Automated Case Support (ACS) system have 
continued to be operational and this information will be migrated to 
Sentinel. Phase 1 provides Sentinel's foundational base and enhanced 
access to the information contained in ACS. Phase 2 will bring 
additional capabilities to the users, including automated workflow, 
document and record management, public-key infrastructure, digital 
signatures, and role-based access controls.
    Question. The December 2006 OIG audit report questioned the 
reliability of the total estimated costs for the program. How confident 
are you about the final cost estimate for the Sentinel program?
    Answer. The estimated costs for the Sentinel program were developed 
consistent with the Federal Acquisitions Regulations (FAR), the 
Department of Justice (DOJ) Information Technology Investment 
Management (ITIM) process, and the FBI's Life Cycle Management 
Directive (LCMD) process. The FBI anticipates total program costs of 
approximately $425 million, including costs for development, program 
management, Independent Verification and Validation, and two years of 
Operations and Maintenance (O&M) after we reach full operating 
capability. Any changes to those estimates will be vetted through the 
ITIM and LCMD boards, documented in accordance with the FAR, and 
provided to Congress.
    Question. Based on this cost estimate, how much additional funding 
or reprogrammed funds will the FBI require to complete this program? If 
reprogramming is required, what programs do you anticipate will lose 
funds?
    Answer. The FBI determined that no additional reprogramming was 
required for fiscal year 2007 Sentinel operations. The funding 
requested in the President's fiscal year 2007 budget, in combination 
with the fiscal year 2007 reprogramming for Sentinel, funded O&M for 
Phase 1 and system development, training, and program management costs 
budgeted for Phase 2. Funding for Phases 3 and 4 and for the remainder 
of O&M for all Phases will be requested in future budget submissions. 
As noted in the response to the Office of the Inspector General (OIG), 
the FBI evaluates the operational impact of any proposed reprogramming 
and takes that impact into consideration in all reprogramming 
decisions. The FBI routinely provides this impact assessment and other 
relevant information to DOJ, the Office of Management and Budget (OMB), 
and Congress.
    Question. I am troubled by reports that two of the companies that 
are part of the Sentinel contract team--Computer Sciences Corp. and 
CACI International Inc.--also played roles in the earlier failed 
Trilogy effort. How do you justify entrusting these companies with 
taxpayer funds again?
    Answer. Two vendors are common to both Trilogy and Sentinel--
Computer Science Corporation (CSC) and CACI International, Inc. The 
division of CSC that worked on Trilogy (and actually a separate firm at 
the time of its Trilogy work, acquired by CSC thereafter) will not be 
working on Sentinel, so we anticipate little or no overlap of services 
or personnel. We have contracted with CACI to provide training for 
Sentinel, which was also the purpose of the Trilogy contract.
    The FBI has strengthened its internal controls to avoid a repeat of 
the issues cited by the Trilogy auditors with respect to all vendors. 
Among other things, we have improved our contract oversight in two 
major ways. First, the Sentinel contract has clear reporting 
requirements and severable deliverables. In other words, we can stop 
work if we are not satisfied with a contractor's progress. Second, we 
have structured our contract management with clearly defined roles and 
responsibilities, so accountable personnel are reviewing all 
documentation and expenses. That process will be supplemented by 
internal audits of our financial management, as well as by oversight 
from Congress and the Administration.
                             violent crime
    Question. Recently, the Seattle Post-Intelligencer reported that 
since the terrorist attacks of September 11 the number of criminal 
investigations conducted by the FBI has declined significantly, and 
white collar investigations in particular have dropped precipitously. 
Many cases that would have been pursued in the past are simply going 
unsolved. I have asked you in the past about declining prosecutions of 
public corruption cases and this study shows that the problem is even 
broader than was previously known. While it is crucial that the FBI 
devote all necessary resources to protecting the country from 
terrorism, that effort should not be at the expense of protecting the 
country from crime.
    Americans count on the FBI to aggressively investigate crime, 
particularly those types of crime that cannot always be adequately 
addressed by the states, like corruption, fraud, civil rights offenses, 
and the most serious violent crime. The FBI's apparent retreat from 
fulfilling these core duties comes at a time of rising violent crime 
rates in the country and dwindling public confidence in the 
Department's objective handling of corruption cases.
    Is the FBI capable of handling the dual tasks of protecting the 
country from terrorism and aggressively enforcing the nation's criminal 
laws at the same time? Why have you not been getting the job done?
    What steps is the FBI taking to make sure that it does not 
sacrifice crucial criminal investigations and prosecutions as a result 
of increased emphasis on terrorism?
    Answer. The number of FBI Special Agents (SAs) assigned to criminal 
cases has decreased by 1,335, or 21 percent, since the attacks of 9/11/
01. Despite the loss of those SA positions, protecting the nation from 
traditional criminal offenses has always remained a core function of 
the FBI, and 53 percent of all FBI SAs remain assigned to these 
criminal matters.
    To address this decrease, the FBI has made difficult choices in 
determining how to most effectively use the available agents. In 2002, 
the FBI established as its criminal program priorities: public 
corruption, civil rights, transnational and national criminal 
enterprises (which include violent gangs and the MS-13 initiative), 
white collar crimes (which include corporate fraud and health care 
fraud), and violent crimes (which include crimes against children).
    Since the designation of public corruption as the top criminal 
priority, over 280 additional agents have been shifted from other 
criminal duties to address corruption cases. The FBI is singularly 
situated to conduct these difficult investigations, and our 
effectiveness is demonstrated by the conviction of more than 1,000 
corrupt government employees in the past two years.
    The FBI has also maintained a steady commitment to addressing civil 
rights matters. Pending Color of Law (excessive force) investigations 
increased 25 percent from 2001 to 2007, and Human Trafficking cases 
increased 323 percent during the same period. FBI investigations of 
Human Trafficking resulted in 29 indictments in 2001; since then there 
have been an average of 48 each year.
    The FBI has addressed violent street gang matters through the 
establishment of Violent Gang Safe Streets Task Forces (VGSSTFs) that 
leverage Federal, state, and local law enforcement resources to 
investigate violent gangs in large, medium, and small cities and towns. 
There are currently 135 VGSSTFs composed of 600 FBI SAs and 1,170 
state/local law enforcement officers.
    Although the FBI has had to reduce the number of SAs working 
Governmental fraud matters since 9/11/01, FBI agents still respond to 
serious crime problems, as demonstrated by the FBI's current 
initiatives to address hurricane-related fraud and Iraq contract fraud.
    The FBI also prioritizes investigations within its White Collar 
Crime Program, emphasizing corporate/securities fraud and health care 
fraud. The corporate fraud cases, in particular, are very labor 
intensive, but they are a priority for the FBI because so many 
represent the private industry equivalent of public corruption, where 
the dishonest actions of a few people in leadership positions cause 
tremendous monetary losses and undermine investor confidence, both of 
which can threaten economic stability.
    The FBI's priorities have resulted in less of an emphasis on 
investigating traditional drug trafficking cases and more emphasis on 
assigning SAs to established Organized Crime Drug Enforcement Task 
Force (OCDETF) strike forces and High Intensity Drug Trafficking Area 
(HIDTA) initiatives that target violent gangs whose members are 
involved in drug trafficking.
    The FBI has also shifted criminal resources to implement the child 
prostitution initiative and the Violent Crime Task Force initiative. 
The child prostitution initiative is a coordinated national effort to 
combat child prostitution through joint investigations and task forces 
that include FBI, state, and local law enforcement, along with juvenile 
probation agencies. This initiative has resulted in more than 500 child 
prostitution arrests (local and Federal combined), 101 indictments, 67 
convictions, and the identification, location, and/or recovery of 200 
children. To address violent crime, the FBI has partnered with other 
state and local law enforcement agencies to create 24 Violent Crime 
Task Forces throughout the United States. The FBI also funds and 
operates 18 Safe Trails Task Forces (STTFs) to address violent crime in 
Indian Country (IC).
    In addition to the above initiatives, the FBI has continuously 
worked to use technology, intelligence analysis, and enhanced response 
capability to leverage criminal program resources. In October 2005, the 
National Crime Information Center's fugitive database was integrated 
with the Department of State passport application system, resulting in 
automatic notification when fugitives apply for United States 
passports. In December 2005, eight Child Abduction Rapid Deployment 
Teams were established in four regions of the United States. These 
teams are available to augment field office resources during the 
crucial initial stages of a child abduction. The FBI is currently 
developing a means of integrating sex offender registries and other 
public databases to better identify sex offenders in the vicinities of 
child abductions and to ``flag'' sex offenders who have changed 
locations without satisfying registration requirements.
    Question. Congress has always been willing to support both of these 
core missions. We have up to now been given the impression that the FBI 
was getting sufficient resources to do these jobs effectively. What 
more does the FBI need to live up to its responsibilities?
    Answer. The FBI has appreciated the support of Congress in ensuring 
that we have the necessary resources to deter and respond to terrorism 
and other crimes. We will continue to work with DOJ, the Office of the 
Director of National Intelligence, OMB, and the Congress to assess what 
resources are necessary to meet our responsibilities, consistent with 
Executive Branch priorities.
                      integrated wireless network
    Question. I was interested to see the March 2006 audit report by 
the Justice Department's Office of the Inspector General regarding the 
progress of the joint Integrated Wireless Network (IWN) for the 
Departments of Justice, Homeland Security, and Treasury. The OIG found 
that despite over 6 years of development and more than $195 million 
being spent on the IWN--out of an estimated $5 billion in total 
estimated costs with a goal of supporting 81,000 federal agents by 
2021--DOJ law enforcement agents have received little in the way of 
new, secure, compliant radio equipment through IWN. The causes for the 
risk of failure include uncertain funding to complete the project, 
disparate departmental funding mechanisms, a fractured IWN partnership, 
and the lack of an effective governing structure for the project. What 
results from this partnership likely will not be the seamless, 
interoperable system that was originally envisioned and therefore the 
communication systems may not be adequate in the event of another 
terrorist attack or national disaster.
    The OIG offered four recommendations for the Justice Department in 
attempting to avoid the IWN train wreck looming on the horizon.
    Do you feel that those recommendations should be followed in order 
for the IWN to become the seamless, interoperable system originally 
envisioned? If not, why and how best do you feel the goal of a 
seamless, interoperable system would be reached?
    Answer. While a valid goal, seamless interoperability does not 
address the immediate needs of DOJ components. The nationwide trunked 
network originally envisioned by some has not been a simple or easy 
undertaking (as demonstrated by the challenges encountered in 
Washington State). A single nationwide system would put those users on 
the same network, but this would not always make the best use of the 
available spectrum. Using trunked networks within a single band (which 
are more spectrally efficient than large-scale, multi-channel 
conventional systems) would not resolve the interoperability issues 
inherent in a system in which Federal, state, and local users use 
alternate frequency bands.
    Evolutionary solutions would provide opportunities for components 
to address their own internal requirements while addressing 
interoperability needs and unnecessary redundancy among DOJ components. 
Current FBI Land Mobile Radio (LMR) systems using the Digital 
Encryption Standard (DES), which is no longer approved for use in 
Sensitive but Unclassified systems, put users at risk for potential 
compromise. These antiquated component systems must be upgraded to meet 
security requirements (such as the Advanced Encryption Standard) while 
satisfying the narrowband mandate and providing enhanced feature sets.
    Future capabilities will include not only multiband, multimode 
radios, but the ability to interoperate with state and local partners 
through multiple gateways.
    Question. What part, if any, has the FBI played in implementing 
those recommendations? How would you define the Bureau's commitment and 
funding requirements to support the network?
    Answer. The FBI has been working with others in DOJ since 1999, 
providing both technical expertise and personnel in their planning, 
design, infrastructure installation, site leasing, spectrum 
coordination, equipment testing, and decommissioning efforts, among 
others. For example, FBI personnel in both Seattle and Portland have 
played an active role in Integrated Wireless Network (IWN) 
implementation, providing expertise and support in order to help make 
the network there a functional reality.
    The FBI's current network infrastructure includes over 3,000 sites 
nationwide, and the cost of system maintenance, site leases, and 
circuit costs are directly affected by IWN's size and capabilities. 
Reduction of the FBI's maintenance costs depends on the installation of 
new equipment as part of either IWN or FBI system/network upgrades. 
Cost savings can be realized either by fully implementing IWN as 
envisioned and decommissioning FBI sites or by downsizing DOJ 
components where permitted by system sharing.
    Question. Through fiscal year 2006, approximately $772 million has 
been appropriated to fund the DOJ Narrowband Communications Account. 
However, instead of funding new technological solutions and upgrades, 
nearly two-thirds of this funding has been used to maintain DOJ's 
antiquated legacy systems. The OIG report found that the majority of 
DOJ's communications systems are obsolete because the manufacturers no 
longer support them, maintenance is difficult and spare parts are hard 
to find. As the DOJ equipment continues to age, these costs are 
expected to increase by five percent each year.
    Between a lack of money because funds that should be used for new 
technology solutions and upgrades are being poured into DOJ's antiquate 
legacy systems, and the rising cost of operating and maintaining legacy 
communications, can you tell me when you expect the IWN to be up and 
running so that the Bureau's agents can access and use the latest in 
interoperable technologies to communicate and coordinate with their 
fellow federal, state and local law enforcement partners?
    Answer. Full migration to a new, DOJ-level, trunked VHF network 
requires not only extensive planning and spectrum coordination, but 
also site preparation and circuit leasing, and these to a much greater 
extent than if the upgrade were to a single organization's system. In 
order to deploy new systems, several issues must be addressed. For 
example, we must upgrade radios in the field as necessary; address 
licensing limitations and the need for compatibility with 
manufacturers' infrastructures; either negotiate new site leases or 
modify existing leases based on new requirements; address access and 
security requirements; and realign and approve spectrum allocations 
while formulating transition schedules. In the interim, although aging 
wideband legacy LMR systems are antiquated, they can be upgraded to 
newer, narrowband, conventional equipment relatively easily, networks 
can be expanded, and capabilities enhanced.
    O&M expenses are a significant part of the cost of any large-scale 
system or network. Site repairs, security upgrades, network expansion, 
radio installations, personnel, and training are among the areas funded 
by DOJ components before the consolidation of those individual 
resources. The integration of multiple systems requires experienced 
engineers and government personnel who understand implementation needs 
to ensure proper oversight, control, and system availability. For 
example, even following integration, these networks must remain 
functional at key local levels during times of crises to ensure the 
public is protected if one agency or one part of the system is 
compromised.
    Question. What impact has the lack of a functioning IWN had on the 
FBI's ability to carryout its counterterrorism mission?
    Answer. Absent the ability to communicate securely with other 
investigative personnel, FBI personnel use other alternatives, such as 
commercial services. Commercial devices operate on commercial networks, 
which may have inadequate capacity in times of crises, may not meet 
security requirements, and may operate only in areas with adequate 
infrastructure. For example, commercial LMR peer-to-peer (device-to-
device) capabilities usually require that the infrastructure be 
operational at the time of attempted communication. In the absence of 
secure communications capabilities, outsiders (including suspects) can 
use frequency monitoring devices (scanners) to track unencrypted online 
communications. Unlike most portable devices currently used by the FBI 
in the field, newer radio models are smaller, can be used to send e-
mails and broadcast messages, provide greater voice clarity, and regain 
range that is lost to systems using DES encryption.
                   intellectual property enforcement
    Question. By some government estimates, U.S. companies suffer $250 
billion in annual losses due to intellectual property theft, which also 
causes U.S. workers to lose millions of jobs. Aggressive investigation 
and prosecution of IP crimes is clearly needed to deter such massive 
infringement. In recognition of this need, the Justice Department's IP 
Task Force, in its October 2004 Report and a subsequent June 2006 
Progress Report, recommended increasing the number of FBI agents 
investigating intellectual property crimes.
    Would you agree with the Task Force's recommendation that, to 
effectively deter rampant IP infringement, there should be an increase 
in the number of FBI agents dedicated to investigating IP crimes?
    Answer. The FBI SAs assigned to cyber crime programs in the FBI's 
field offices address intellectual property (IP) infringement matters 
in the same manner as they address other FBI violations, which is based 
upon FBI investigative priorities. IP infringement matters that pose a 
threat to national security (such as certain thefts of trade secrets) 
are the FBI's highest IP infringement priority. The number of SAs 
working IP matters has decreased since fiscal year 2005 due to the 
November 2004 re-ordering of cyber priorities, pursuant to which 
Innocent Images matters were placed in a higher priority than IP 
rights. In fiscal year 2005 there were approximately 56 SAs working IP 
investigations, while in June 2007 there were 48.
                       national security letters
    Question. Director Mueller, as you know, I am very concerned about 
the widespread abuse of National Security Letters (``NSLs'') at the 
FBI. Last month, the Justice Department's Inspector General recently 
reported on a pattern of unacceptable abuses of NSLs by the FBI, where 
time and time again the FBI did not follow the law, or even its own 
rules, in obtaining sensitive personal information about thousands of 
ordinary Americans and others. According to the Inspector General's 
report, one in every five of the NSL files reviewed contained 
violations of the law, and more than half of the NSLs reviewed did not 
even meet the FBI's own standards. During the FBI Oversight hearing 
that the Judiciary Committee held last month, you promised to promptly 
address the serious lapses with NSLs.
    Director, what are you doing to make sure that the FBI follows the 
law--and its own policies--when issuing National Security Letters going 
forward?
    Answer. As a result of the OIG report, the FBI has prepared 
comprehensive guidance concerning the use of National Security Letters 
(NSLs). Every proposed NSL must be reviewed by the Chief Division 
Counsel in each FBI field office or by an attorney in the National 
Security Law Branch (NSLB) at FBIHQ, including review of the relevance 
of the request to an authorized investigation and the predication for 
that investigation. In addition, NSLB is developing a training 
curriculum, which will be mandatory for all employees involved in the 
NSL process, to address problems created by confusion and lack of 
familiarity with the provisions and requirements of the various 
statutes authorizing NSLs. Even before the OIG report was published, 
the FBI had begun work on a database, based on the successful ``FISA 
Management System,'' that will permit the electronic transfer of NSL-
related data between databases (this transfer is currently being 
accomplished manually). Finally, the Inspection Division is 
investigating in more detail many of the problems identified in the OIG 
report. This review should identify any areas that require closer 
scrutiny. Taken together, these measures will both provide a more user-
friendly business process for FBI personnel who use NSLs as an 
investigative technique and enhance management's audit and oversight 
capabilities. This system will also enhance the accuracy of the NSL 
reports provided to Congress.
    The FBI has also recognized the need to create a compliance program 
to ensure we have appropriate policies, procedures, audit capabilities, 
and training for all our activities. The FBI's compliance program will 
be modeled after similar programs in the public and private sectors. 
While it is too early to say with certainty what the program will look 
like, it will most likely incorporate features common to most 
successful programs, such as a written compliance policy, a central 
compliance officer and office, a senior-level compliance committee, 
access to and the ability to draw upon the resources of the 
organization, and an implementing strategy that adjusts as new threats 
and programs are identified. Audits of practices, not just procedures, 
will be an essential component of the program, as will effective ``two-
way'' communication channels. In addition, OGC will continue to meet 
regularly with DOJ's National Security Division (NSD) to discuss 
appropriate policies in the national security arena. DOJ's NSD and the 
FBI's NSLB conducted 14 national security reviews of the FBI's field 
offices and one of an FBI Headquarters Division in calendar year 2007. 
There are 14 national security reviews of the FBI's field offices and 
one of an FBI Headquarters Division planned for calendar year 2008. 
Those reviews will include, but not be limited to, the use of NSLs.
    Question. One of the most disturbing findings in the Inspector 
General's Report was that the FBI improperly issued more than 700 so-
called ``exigent letters,'' seeking telephone and financial records on 
an emergency basis, which contained blatant factual misrepresentations. 
Is the FBI still using these so-called ``exigent letters,'' and if so, 
based upon what legal authority?
    Answer. The OIG identified four problems with the so-called exigent 
letters as they were used by the FBI's Communications Analysis Unit 
(CAU): (1) although the letter asserted there were exigent 
circumstances, that was not always the case; (2) the CAU maintained no 
records supporting the claimed emergency; (3) although many of the 
letters asserted that a Federal grand jury subpoena had been requested, 
in fact, in most circumstances a grand jury subpoena had not been 
requested and the intent was to provide the carrier with an NSL; and 
(4) in many cases, although subsequent legal process had been promised 
to the carrier, no process (neither a grand jury subpoena nor an NSL) 
was delivered in a timely fashion.
    It was not until the FBI received the draft OIG report that 
executive leadership became aware of the full scope of the problems 
with the use of the so-called exigent letters. Upon learning of this 
matter, the FBI worked quickly to develop policy that would address the 
shortcomings identified in the OIG report without undermining the FBI's 
ability to receive information under 18 U.S.C.  2702(c)(4), a critical 
provision allowing communications service providers to give the 
government information in certain emergency circumstances. That policy, 
which was issued on 3/1/07, discontinued the use of ``exigent letters'' 
of the sort described in the OIG report, but affirmed that the FBI may 
continue to receive information pursuant to section 2702. The new form 
2702 letter makes it very clear that: production of the records is at 
the carrier's discretion; no other legal process is promised; and, by 
policy, the emergency justifying this requirement must be documented. 
Accordingly, the FBI believes the new policy deals precisely with the 
problems identified by the OIG and appropriately balances privacy 
concerns with investigative needs in case of dire, life-threatening 
emergencies.
                          privacy/dna sampling
    Question. Pursuant to a little noticed provision in the Violence 
Against Women and Department of Justice Reauthorization Act of 2005, 
the Justice Department is developing new guidelines that would greatly 
expand the government's ability to collect DNA samples--which reveal 
the most sensitive genetic information about an individual--from most 
individuals who are arrested or detained by federal authorities. Under 
this policy, the Government will store this sensitive biological 
information in a federal data base known as the National DNA Index 
System.
    I am very concerned about the privacy implications of this new 
policy because, unlike fingerprinting--which is commonly used as a 
means of identification--DNA profiles reveal all kinds of sensitive 
biological information about a person, including the presence of a 
physical disease or mental disorder.
    Director Mueller, what privacy protections are in place under these 
new guidelines to ensure that sensitive DNA data contained in the 
National DNA Index System will not be misused or improperly disclosed 
by the Justice Department?
    Answer. While the FBI is working with others in DOJ to finalize the 
regulations on DNA sample collection relative to federal arrestees and 
detainees, there are already a number of protections in place and they 
are vigorously enforced. When arrestee and detainee DNA samples are 
collected, they are placed in the National DNA Index System (NDIS) 
offender database. The offender and crime scene databases are populated 
by profiles from Federal, state, and local law enforcement agencies. 
The profiles within the database use only genetic markers that provide 
identification; no other genetic information, such as medical status, 
can be gleaned from these markers, and NDIS, which is in essence a 
pointer system, does not contain any names or personally identifying 
information. Instead, each profile is associated with a unique 
identifier that traces back to the laboratory that developed that 
particular profile and placed it in the database. Once a ``hit'' occurs 
and is confirmed, then the two laboratories involved will exchange 
information regarding the individual involved.
    Although all states participate in NDIS, they do not have direct 
access to the national database. NDIS is searched once a week at the 
FBI and a hit report is generated. If an individual lab wants to follow 
up on a particular hit (generally the lab that contributed the forensic 
sample), it contacts the laboratory that provided the offender 
information and a confirmation process begins. During that process, the 
laboratories follow written procedures to ensure the hit is related to 
the correct offender; these procedures include re-working a portion of 
the remaining sample and re-comparing results. Under procedures 
established by the NDIS Board, no names or other personally identifying 
information may be reported until the confirmation process is complete.
    Federal law also provides privacy protections, including criminal 
penalties. By law, NDIS may only include DNA information that is:
    Maintained by Federal, State, and local criminal justice agencies 
(or the Secretary of Defense in accordance with section 1565 of Title 
10) pursuant to rules that allow disclosure of stored DNA samples and 
DNA analyses only--
  --(A) to criminal justice agencies for law enforcement identification 
        purposes;
  --(B) in judicial proceedings, if otherwise admissible pursuant to 
        applicable statutes or rules;
  --(C) for criminal defense purposes, to a defendant, who shall have 
        access to samples and analyses performed in connection with the 
        case in which such defendant is charged; or
  --(D) if personally identifiable information is removed, for a 
        population statistics database, for identification research and 
        protocol and development purposes, or for quality control 
        purposes. (42 U.S.C.  14132(b)(3).)
    These protections are further bolstered by provisions that 
reiterate these protections and provide criminal penalties for 
individuals who knowingly disclose DNA information from the database to 
a person or agency not authorized to receive it. (See, for example, 42 
U.S.C.  14133(c) and 42 U.S.C.  14135e(c).)
    Finally, we are conducting a privacy impact assessment to analyze 
how this DNA information will be handled, determine risks from 
processing this information, and identify protections to help mitigate 
any privacy risks.
    Question. Another concern that I have about this policy is that it 
will just add to the already notorious backlog at the FBI's laboratory. 
According to press reports, the FBI acknowledges that this new policy 
will result in an increase of as many as one million additional DNA 
samples a year. Is the Bureau's laboratory equipped to handle this 
additional workload?
    Answer. The FBI's Federal Convicted Offender (FCO) Program is 
responsible for collecting and processing DNA samples collected from 
those convicted of Federal felonies for the purpose of retention and 
cataloging in the FBI's National DNA Database. The FCO Program supplies 
collection kits and receives samples from over 500 collection sites 
across the country. Since the program's inception in June 2001, over 
225,000 samples have been received. The FCO Program currently receives 
7,000 to 8,000 samples monthly. To date, the FCO Program has uploaded 
over 34,000 samples into the National DNA Database, which has resulted 
in over 600 hits. The volume of sample submissions to the FCO Program 
has increased dramatically since 2001.
    While much of the DNA analysis process has been automated, a 
bottleneck continues to exist at the DNA data review stage, which is 
currently conducted manually. To alleviate this bottleneck, the FBI is 
evaluating data analysis software packages or expert systems to 
automate this part of the process. Once implemented, the resulting 
system would be able to assess 85 percent to 90 percent of the 
convicted offender data without manual intervention, reducing data 
analysis time from approximately 60 minutes (per 80 samples) to less 
than 15 minutes (a four-fold increase in efficiency).
questions submitted by senator leahy pursuant to the december 6, 2006, 
       senate judiciary committee hearing regarding fbi oversight
    The FBI's responses to the Questions for the Record (QFRs) posed by 
Senator Leahy to Director Mueller following the December 6, 2006, 
Senate Judiciary Committee hearing, and resubmitted following this 
hearing, were provided to the Senate Judiciary Committee by letter 
dated June 14, 2007, along with the rest of the QFRs posed to the FBI 
following that hearing. Please refer to the record for the responses to 
those questions.
Iraq Study Group Recommendations
    1. In its recent report about the situation in Iraq, the bipartisan 
Iraq Study Group found that the Iraqi Police Service (``IPS'') is in 
dire straits. In particular, the report states (on pages 9-10):
    The state of the Iraqi police is substantially worse than that of 
the Iraqi Army. The Iraqi Police Service currently numbers roughly 
135,000 and is responsible for local policing. It has neither the 
training nor legal authority to conduct criminal investigations, nor 
the firepower to take on organized crime, insurgents, or militias . . . 
Iraqi police cannot control crime, and they routinely engage in 
sectarian violence, including the unnecessary detention, torture, and 
targeted execution of Sunni Arab civilians. . . . There are ample 
reports of Iraqi police officers participating in training in order to 
obtain a weapon, uniform, and ammunition for use in sectarian violence. 
Some are on the payroll but don't show up for work. In the words of a 
senior American general, ``2006 was supposed to be `the year of the 
police' '' but it hasn't materialized that way.
    In recommendation #54 of the report, the Iraq Study Group advocates 
having the Justice Department direct the training mission of the IPS 
forces that remain within the Iraq Ministry of the Interior.
    (a) Please state whether you agree with this recommendation and 
explain your response.
    (b) What role has the FBI had in the training of the Iraqi police, 
thus far?
    (c) What additional steps will the FBI take to train the IPS in 
light of the Iraq Study Group's report and in particular, this 
recommendation?
    2. In recommendation #57, the Iraq Study Group recommends that the 
practice of embedding U.S. police trainers with Iraqi police units be 
expanded and that the number of civilian officers training Iraqi police 
be increased.
    (a) Please state whether you agree with this recommendation and 
explain your response.
    (b) Are there currently any FBI agents embedded with the Iraqi 
Police Service? If so, how many?
    (c) Will the FBI provide additional police trainers to participate 
in the training of the Iraqi Police Service and, if so, how many?
    3. In recommendation #58, the Iraq Study Group further recommends 
that the FBI expand its investigative and forensic training and 
facilities in Iraq, to address both terrorism and criminal activity.
    (a) Please state whether you agree with this recommendation and 
explain your response.
    (b) How many FBI agents and personnel are currently providing 
investigative and forensic training in Iraq?
    (c) How many FBI agents and personnel are currently assisting with 
counterterrorism activities in Iraq?
    (d) Will the FBI expand its role in these programs as the Iraq 
Study Group recommends and, if so, what additional resources, including 
staff, equipment and funding, will be dedicated to that effort?
    4. Public corruption is a significant problem in Iraq. According to 
the Iraq Study Group's report, one senior Iraqi official estimated that 
official corruption cost the Iraqi Government between $5 and $7 billion 
per year. To address the rampant corruption in Iraq, the Iraq Study 
Group concludes that Justice Department programs to create institutions 
and practices to fight public corruption in Iraq ``must be strongly 
supported and funded.''
    (a) What resources, including staff, equipment and funding, does 
the FBI currently have dedicated to helping to fight public corruption 
in Iraq?
    (b) Will the FBI increase the resources that it currently has in 
Iraq to further assist the Iraqi government in fighting public 
corruption?
Datamining/ATS and IDW
    5. At the hearing, I asked you about the Department of Homeland 
Security's Automated Targeting System (``ATS'') and recent revelations 
that, since 9/11, the Bush Administration has been using this program 
to secretly assign terror scores to millions of law-abiding Americans 
who travel across our borders. You were not prepared to answer my 
questions about ATS at the hearing; however, you stated that you would 
look into this matter. Please respond to the following questions:
    (a) During an unclassified briefing for Judiciary Committee staff, 
the Department of Homeland Security said that it shares the sensitive 
personal information in the ATS database with the FBI and checks the 
information in this database against the Terrorist Watchlist. Does the 
FBI receive the terror scores or assessments and the other information 
contained in the ATS database? Please describe the information that the 
FBI receives from ATS and explain how the Bureau uses this information.
    (b) Does the FBI use the information that it receives from ATS to 
assist it in investigating traditional criminal cases as well as 
counterterrorism matters?
    (c) What safeguards are in place at the FBI to ensure the accuracy 
of this information and to protect the privacy interests of the 
millions of law-abiding Americans whose sensitive personal data is 
contained in ATS?
    6. You also testified that you would check into whether the FBI's 
own Investigative Data Warehouse database (``IDW'')--which now contains 
more than 560 million FBI and other agency documents--shares 
information or data with ATS. Does the IDW database share information 
or otherwise interface with the ATS data-mining program?
    7. You further testified that the FBI has issued a privacy impact 
statement for IDW.
    (a) Has the Bureau publicly released this privacy impact statement 
for IDW and, if not when will the FBI do so?
    (b) Has the FBI filed a notice in the Federal Register regarding 
the IDW program? If not, why not, and when will the Bureau do so?
    8. What policies are in place to ensure the accuracy and security 
of the sensitive personal data contained in the IDW database?
Detainee Treatment
    9. Last year's Detainee Treatment Act and this year's Military 
Commissions Act both set standards for what types of interrogation 
techniques are and are not permissible. In each case, though, the 
standards are general and open to interpretation.
    (a) Did the Office of Legal Counsel or any other legal office at 
the Justice Department or the FBI provide guidance to the FBI regarding 
how to interpret the provisions of the Detainee Treatment Act governing 
what interrogation practices are permissible?
    (b) What form did this guidance take? Did it dictate what specific 
interrogation techniques can and cannot be used?
    (c) What was the substance of this legal guidance? Will you share 
this document with the Committee?
    10. Has the Office of Legal Counsel or any other legal office at 
the Justice Department or the FBI provided guidance to the FBI 
regarding how to interpret the provisions of the newly passed Military 
Commissions Act governing what interrogation practices are permissible?
    (a) If so, what is that guidance? Please provide a copy of any 
legal guidance provided to the FBI regarding the Military Commissions 
Act.
    (b) If not, please explain how your agents know what is permitted 
or prohibited by the broad language of the Military Commissions Act 
without legal guidance. Do you expect to receive legal guidance in the 
future?
    11. An FBI Supervisory Special Agent at Guantanamo Bay wrote a memo 
in November 2002 entitled ``Legal Analysis of Interrogation 
Techniques,'' in which he or she concluded that rendering terrorism 
suspects to ``Jordan, Egypt, or another third country to allow those 
countries to employ interrogation techniques that will enable them to 
obtain the requisite information'' would violate 18 U.S.C. Sec. 2340 
(the torture statute). Specifically, the memo states:
    In as much as the intent of this category is to utilize, outside 
the United States, interrogation techniques which would violate 18 
U.S.C. Sec. 2340 if committed in the United States, it is a per se 
violation of the U.S. Torture Statute. Discussing any plan which 
includes this category, could be seen as a conspiracy to violate 18 
U.S.C. Sec. 2340. Any person who takes any action in furtherance of 
implementing such a plan, would inculpate all persons who were involved 
in creating this plan. This technique cannot be utilized without 
violating U.S. Federal law.
    Legal Analysis of Interrogation Techniques (available online at 
http://www.humanrightsfirst.org/us_law/etn/pdf/fbi-brief-inter-
analysis-112702.pdf).
    (a) Do you agree that the ``technique'' of rendering suspects to 
third countries in order to allow those countries to use coercive 
interrogation techniques that violate U.S. law ``cannot be utilized 
without violating U.S. Federal law''?
    (b) Does the legal analysis contained in the November 2002 memo 
reflect the FBI's current thinking with respect to rendition and other 
interrogation techniques? If not, how does the FBI's current analysis 
differ from the analysis in the memo?
    12. You testified that the FBI is not investigating any of the 
allegations that have been made by German national Khalid El-Masri and 
others regarding possible violations of U.S. law in connection with the 
rendering of individuals to foreign countries. Why isn't the FBI 
investigating these allegations?
Brandon Mayfield
    13. In December, the government agreed to pay $2 million to settle 
a case that had been brought by Oregon lawyer Brandon Mayfield. Mr. 
Mayfield was jailed for two weeks in 2004 as a material witness, in 
connection with the Madrid train bombing. As part of the settlement, 
the government made a formal apology to Mr. Mayfield and his family for 
the suffering caused by his mistaken arrest. Mr. Mayfield was arrested 
and held for two weeks on a material witness warrant. Under the 
material witness law, the government is authorized to arrest a witness 
to secure his testimony in a criminal proceeding. After the 9/11 
attacks, the Justice Department began using the material witness law 
not to secure testimony from possible witnesses, but rather to lock up 
possible suspects in counter-terrorism investigations without charge 
until there is enough evidence to indict. Is it accurate to say that 
this is what happened in the Mayfield case?
    14. The Second Circuit Court of Appeals wrote in 2003 [in the 
Awadallah case] that the purpose of the material witness law is to 
secure testimony where it may become impracticable to secure the 
presence of the witness by subpoena. The Court added: ``It would be 
improper for the government to use [the material witness law] for other 
ends, such as the detention of persons suspected of criminal activity 
for which probable cause has not yet been established.'' Do you agree 
that it is improper for the government to use the material witness law 
for purposes other than securing testimony?
    15. The government noted as part of the settlement with Mr. 
Mayfield that the FBI had taken steps ``to ensure that what happened to 
Mr. Mayfield and the Mayfield family does not happen again.'' What 
steps has the FBI taken? Do they include any new guidance respecting 
the use of the material witness statute?
Sentinel
    16. You testified that there will be no cost overruns or budget 
shortfalls for the Sentinel program. However, in December 2006, the 
Department of Justice Office of Inspector General (``OIG'') released a 
report that found that the FBI will need an additional $56.7 million 
over what the President requested in his budget for next year to 
continue the Sentinel project, and that these additional costs could 
have an adverse impact on the FBI's counterterrorism and other 
programs. The OIG's report also calls the FBI's cost estimate for the 
Sentinel program into serious question.
    (a) Does the FBI need additional funds to pay for Phase II of 
Sentinel and if so, how much additional funding is needed?
    (b) You testified that the FBI has set aside $57 million to make up 
the difference between the President's $100 million budget request for 
Sentinel and the anticipated program costs for Phase II. What FBI 
programs will be cut back or eliminated in order to use these funds to 
pay for Sentinel?
    (c) Will you promptly inform Congress of Sentinel's operational 
impact on other FBI programs if reprogramming of funds is necessary to 
pay for Sentinel?
    17. Earlier this year, the Government Accountability Office 
(``GAO'') found that the FBI paid about $10.1 million in unallowable 
costs to contractors during the Trilogy program. You have said that the 
FBI would pursue these funds upon completion of a closeout audit of the 
Trilogy program by the Defense Contract Audit Agency. When will the FBI 
start to recover these taxpayer funds?
    18. Another concern raised by the GAO is the FBI's over-reliance on 
government contractors to complete Sentinel. According to the GAO, 77 
percent of the positions for Sentinel will be filled by contractors 
rather than by government personnel. Given the FBI's past experiences 
with contractors on the Trilogy program, is the Bureau overly relying 
on contractors for Sentinel?
Arabic-speaking Agents and Translators
    19. Despite progress on hiring Arabic translators, the FBI lags far 
behind when it comes to the number of agents who are proficient in 
Arabic. Recently, The Washington Post reported that only 33 FBI agents 
have at least a limited proficiency in Arabic and only 1 percent of FBI 
agents have any familiarity with the language.
    (a) How can the FBI effectively fight the war on terror when most 
of its agents lack even a basic proficiency in the Arabic language?
    (b) How has the lack of Arabic speaking agents impacted the 
Bureau's ability to develop relationships with Arabic-speaking and 
Muslim communities within the United States?
    (c) How has the lack of Arabic speaking agents impacted the 
Bureau's ability to gather critical counterterrorism intelligence?
    20. You previously testified that the FBI can translate high-
priority counterintelligence material within 24 hours. Is this still 
the case, and what are the realistic prospects for this type of 
material to be translated in something approximating real time?
Afghanistan Opium Trade
    21. Earlier this year, the United Nations Office on Drugs and Crime 
(``UNODC'') reported that there has been a surge in opium cultivation 
in Afghanistan that is fueling the insurgency in that country. 
According to the report, opium production in Afghanistan has increased 
59 percent over last year and in the southern region where Taliban 
insurgents have intensified their attacks on Afghan government and U.S. 
forces, opium cultivation has increased by 162 percent. Given that the 
Bush Administration routinely describes the international narcotics 
trade as a national security issue, and that the production of opium 
has skyrocketed since the invasion of Afghanistan and removal of the 
Taliban, what does this mean for our national security at home and for 
the safety of our troops in Afghanistan?
Terrorist Watchlist
    22. You recently disclosed that the Terrorism Screening Database 
(``TSDB'') contains 491,000 records and that the FBI's review of the 
database to ensure the accuracy of these records will take years. The 
glaring errors in the FBI's Terrorist Watchlist--including the names of 
Members of Congress, infants and even nuns--clearly make the case for 
why this review is needed. These errors also suggest that any review of 
the TSDB must also include finding out how the bad information that is 
in this database got there in the first place.
    (a) What is the FBI doing to find out how bad data got into the 
TSDB and onto the terrorist watchlist?
    (b) Is there any procedure in place that requires the FBI to 
conduct an internal investigation whenever errors are detected in the 
TSDB? Should there be?
Cyber Security
    23. During the hearing, you testified that cyber crime is one of 
the FBI's top three priorities on the national security side. In late 
November, there were unconfirmed reports of a threatened attack on U.S. 
stock market and the Banking industry websites by a radical Muslim 
group. According to press reports, the attack would be in retaliation 
for the detention of Muslim prisoners at Guantanamo Bay.
    (a) What steps did the FBI take to respond to this threat?
    (b) What resources does the FBI currently have dedicated to U.S. 
cyber security?
Public Corruption
    24. In your testimony at the hearing, you called public corruption 
the FBI's top criminal investigative priority and you asserted that 
there has been an increase in the number of agents investigating public 
corruption cases and the number of cases investigated. However, a 
September 2005 report by the Department of Justice Office of the 
Inspector General found that, from 2000 to 2004, there was an overall 
reduction in public corruption matters handled by the FBI. The report 
also found declines in resources dedicated to investigating public 
corruption, in corruption cases initiated, and in cases forwarded to 
U.S. Attorney's Offices. It further found that some field offices were 
not giving public corruption sufficient emphasis and had scaled back 
their anti-corruption efforts.
    (a) What have you done since the Inspector General's report came 
out to ensure that combating corruption gets the resources and 
attention it needs?
    (b) Would the FBI benefit from additional resources to combat 
public corruption? If so, what types of resources would be the most 
helpful?
    25. In your written testimony, you cited the Phoenix Division's 
Lively Green investigation as an example of the FBI's commitment to, 
and success in, investigating public corruption. The Arizona Republic 
reported earlier this year that FBI agents working on the Lively Green 
investigation paid for a room for informants to stay in a presidential 
suite at the MGM Grand Hotel in Las Vegas. According to a disclosure 
made by prosecutors, the informants and suspects staying in the room 
hired prostitutes and sexually abused an unconscious prostitute. Soon 
after, FBI personnel recorded conversations which included detailed 
descriptions of the incident, and agents reviewed lewd photographs from 
the incident. FBI personnel failed to report the incident to 
prosecutors, who learned of it only many months later from an 
informant, and one agent was found to have made statements apparently 
suggesting that the informants get rid of the incriminating 
photographs. Although the Lively Green prosecutions went forward 
successfully, these cases were placed in jeopardy by this conduct.
    (a) What is the FBI doing to ensure that the problems that plagued 
the Lively Green investigation and other past investigations--agents 
covering for their informants' misconduct--do not happen again?
    (b) Are you satisfied with the steps that the FBI took to 
investigate and respond to the misconduct in the course of this 
operation?
FBI Computer System Failure
    26. According to several press reports, the FBI's National Instant 
Criminal Background Check System, which is used to screen gun buyers, 
crashed several times in November 2006--potentially allowing gun buyers 
to purchase firearms without being properly screened. According to the 
FBI, this background check system receives between 30,000 and 50,000 
background check request each day, so this is not an insignificant 
matter. I have three questions:
    (a) Has the FBI determined what caused the system to crash, and has 
this problem been fixed?
    (b) Does the FBI know how many gun sales were completed without 
background checks while the system was down?
    (c) What is the FBI doing to make sure that this problem never 
happens again?
Mike German/Whistleblowers
    27. According to the Office of the Special Counsel (``OSC''), the 
average number of whistleblowers who have filed complaints with the 
government has increased by 43 percent since September 11, 2001. Yet, 
sadly, the number of whistleblowers who have filed reprisal complaints 
with the OSC because their employers have retaliated against them for 
coming forward has also increased by 21 percent during the same time 
period. For example, former FBI special agent Michael German has said 
that his reputation and career were ruined after he reported concerns 
about misconduct on the Bureau's terrorism investigations to his 
superiors. What is the Bureau doing to protect the rights of 
whistleblowers within the FBI to come forward and disclose government 
fraud, waste and abuse?
    28. Many whistleblowers in the intelligence community are 
discouraged from coming forward because intelligence agencies are 
exempted from the Whistleblower Protection Act. Would you support 
legislation to extend whistleblower protections to national security 
employees?
Anthrax Investigation
    29. The Bureau's investigation into the 2001 anthrax attacks that 
killed 5, infected 17 others and terrified millions of Americans is now 
well into its fifth year. Many believe that the investigation has gone 
very cold and no arrests have been made in the case.
    (a) What is the current status of the anthrax investigation?
    (b) Do you expect that criminal charges will be brought in the case 
and if so, when?
    (c) You testified at the hearing that the FBI currently has 17 
agents and 10 postal inspectors assigned to the anthrax investigation. 
Has the number of personnel dedicated to the investigation changed? 
Will you consider increasing the number of agents and investigators 
dedicated to this investigation?
    (d) How much money has the FBI spent on the anthrax investigation 
to date?
    30. A frequent criticism of the anthrax investigation is that the 
FBI has made a number of incorrect assumptions about the source of the 
anthrax and refused to heed outside expert advice in the case. Will the 
Bureau be open to new theories about the case and more receptive to 
outside expertise and criticism going forward?
    31. You testified that the FBI has ``periodically'' provided 
briefings for the family members of the anthrax attacks. When was the 
Bureau's last briefing to victims and their family members? How often 
does the FBI provide these briefings?
Combined DNA Index System (CODIS)
    32. A recent investigation by USA Today uncovered nearly three 
dozen cases during the past five years in which investigators failed to 
pursue potential suspects whose DNA matched evidence found at crime 
scenes. (``Many DNA Matches Aren't Acted On, Nov. 21, 2006). According 
to USA Today:
    The unpursued matches had this in common: All were recorded as 
``hits'' by the CODIS system and added to the list of CODIS-aided 
investigations that the FBI makes public. Through September, the FBI 
counted 39,291 such matches since 1990. No one is certain how many of 
those matches resulted in arrests or convictions, however. In part 
that's because no law or regulation requires crime labs, the FBI or 
local law enforcement to follow through and determine what becomes of 
DNA matches after the CODIS system reports them to the police. Crime 
lab officials believe hundreds more matches have not been pursued by 
authorities. They say those matches might become evident only after a 
perpetrator is caught for a second time.
    (a) Does the FBI keep any data on how many CODIS matches are 
pursued by investigators?
    (b) Does the FBI keep any data on how many CODIS matches have 
helped solve crimes?
    33. The leader of the FBI's CODIS unit told USA Today that tracking 
the results of DNA matches would present a ``significant task'' that 
the FBI is not geared to undertake, and that accounting for CODIS 
matches should be the responsibility of local police and prosecutors 
who are given match information. Do you agree?
    34. Do you have any recommendations for improving accountability in 
this area? How can the federal government get an accurate measure of 
CODIS's real world value in solving crimes?
Corporate Fraud
    35. You testified during the hearing that white-collar criminal 
cases were one of the FBI's top three priorities on the criminal side. 
Recently, Deputy Attorney General McNulty issued new guidelines for 
corporate fraud investigations to address growing concern about the 
Department of Justice's investigation and prosecution of corporate 
fraud cases and, in particular, criticisms of the Department's policy--
embodied until recently in the so called ``Thompson Memorandum''--to 
request that corporate defendants produce attorney-client privileged 
and/or work product information in these investigations.
    (a) Does the FBI request or demand that corporate defendants turn 
over attorney-client privileged or work product information in its 
corporate fraud investigations? If so, would you describe such requests 
as routine in white collar fraud cases?
    (b) What will the FBI do to ensure that agents investigating 
corporate fraud cases conform their conduct to fit the standards set 
out in the new McNulty Memorandum?
Gardner-quinn Murder Investigation
    36. During the hearing, you testified that the FBI agent who 
published details of the Gardner-Quinn murder investigation in a 
Vermont newspaper is under investigation. What is the status of this 
investigation and has the agent involved been disciplined by the FBI?
 questions submitted by senator leahy pursuant to the march 27, 2007, 
       senate judiciary committee hearing regarding fbi oversight
    The FBI's responses to the below QFRs posed by Senator Leahy to 
Director Mueller following the 3/27/07 Senate Judiciary Committee 
hearing were to be provided to the Senate Judiciary Committee with the 
rest of the QFRs posed to the FBI following that hearing. Because we 
are not providing those responses here, we have ``grayed out'' these 
particular QFRs.
National Security Letters
    1. Despite the recent report by the Department of Justice Inspector 
General finding illegal and improper use of National Security Letters 
and so-called ``exigent letters,'' I understand that the FBI may still 
be using exigent letters. Is the FBI still using exigent letters and if 
so, why have you not stopped this practice?
    2. The Attorney General's guidelines require that the FBI use the 
least intrusive investigative tools to obtain the information that it 
needs. During the recent hearing that the Committee held on NSLs, 
Inspector General Glenn Fine testified that the least intrusive NSL are 
the ones seeking telephone records and that NSLs for financial records 
and for credit reports are more intrusive of Americans' privacy. During 
the hearing, you testified that you believed that NSLs seeking credit 
reports could be intrusive, but less so than those seeking telephone 
toll records. Does the FBI have a policy in place requiring that agents 
first use the least intrusive types of NSLs--such as NSLs seeking 
telephone toll records--when conducting investigations? If not, will 
you adopt such a policy to better safeguard Americans' privacy?
    3. I am also concerned about the kind of information that the FBI 
is seeking in its National Security Letters.
    (a) Is it true that most of the FBI's NSLs seeking telephone or 
Internet records under the Electronic Communications Privacy Act 
(``ECPA'') seek only subscriber identifying information? What 
percentage of these NSLs seek other transactional information, such as 
toll records or billing records?
    (b) With regard to NSLs that seek bank or other financial records 
under the Right to Financial Privacy Act, the Fair Credit Reporting Act 
and the National Security Act, what percentage of these NSLs seek 
detailed financial transaction information, such as bank account 
records and/or full credit reports?
    4. During the hearing, you testified that the information that the 
FBI improperly obtained through unlawful NSLs has been placed into the 
FBI's database. What steps have you taken to track all of this 
improperly obtained information, and have you removed it from all of 
the FBI's files and databases?
    5. Has any of the information improperly obtained through unlawful 
NSLs been used in any criminal cases or investigations and, if so, have 
you notified appropriate authorities at the Justice Department in order 
to make sure none of this information has been improperly used in our 
justice system?
    6. Do you believe that the FBI's failure to follow the law in 
obtaining NSLs may be exculpatory, or Giglio information, that needs to 
be disclosed if the information is used in court?
    7. The Judiciary Committee has received letters and briefings from 
FBI and Justice Department officials in the past, assuring us that NSLs 
were being used properly, and that all appropriate safeguards and legal 
authorities were being followed. For example, in a November 2005 letter 
to this Committee (attached), the Justice Department asserted 
emphatically that the FBI was not abusing the process for seeking NSLs, 
and that all NSL activity was accurately being reported to Congress as 
required by law. In light of the Inspector General's report, will you 
review those letters and briefings to see if anyone at the FBI or the 
Justice Department has misled this Committee about NSLs?
    8. According to the Inspector General's report, one of the major 
reasons that the FBI failed to report thousands of NSLs to Congress was 
because of a malfunction in a FBI's computer database. Apparently, this 
breakdown occurred in 2004, causing the loss of information about more 
than 8,000 NSL requests. What was the cause of this malfunction, and 
have you corrected it? Why did you fail to report this problem to 
Congress?
    9. You testified during the hearing that the FBI has revised its 
internal policy on NSLs and adopted the recommendations contained in 
the Inspector General's report. But, in 60 percent of the NSLs that the 
Inspector General reviewed, he found widespread failure on the part of 
the FBI to comply with its own internal control policies. Given this 
track record, how can you assure Congress that the new policies that 
you are implementing will prevent future abuses of NSLs, when the 
Bureau clearly failed to follow its own policies in the past?
    10. During the hearing, you testified that ``[t]he relevant 
standard established by the PATRIOT Act for the issuance of National 
Security Letters is unrelated to the problems identified by the 
Inspector General.'' Yet, given the broad scope of the abuses uncovered 
by the Inspector General's report, it appears that there is a need for 
additional checks and balances on the authority to issue NSLs. Do you 
believe that an independent check on the NSL process, such as approval 
of NSLs by a judge, a Justice Department attorney, or an outside review 
panel, would improve the NSL approval process and prevent future 
abuses?
Library Records
    11. I appreciate your March 30, 2007, letter responding to my 
question about how often the FBI has used NSLs to obtain records from 
libraries and educational institutions. In your letter, you state that 
the FBI's Office of General Counsel has maintained an informal list of 
the number of NSLs served on educational institutions or libraries; 
however, you also state that this list may not be complete or accurate. 
Given the importance of this issue to Americans' privacy and civil 
liberties, will the FBI agree to formally track the number of NSLs 
issued to libraries and educational institutions and periodically 
report this figure to Congress?
    12. During the hearing, you cited the Inspector General's Report on 
Section 215 of the PATRIOT Act, which found that the FBI rarely used 
this authority to obtain library records. However, I am concerned that 
the FBI is using other provisions in the PATRIOT Act to obtain this 
information, thereby circumventing the safeguards and reporting 
requirements of Section 215. For example in 2005, the FBI issued NSLs 
to four Connecticut libraries asking them to surrender ``all subscriber 
information, billing information and access logs of any person'' 
related to a specific library computer during a specific time period, 
pursuant to Section 505 of the PATRIOT Act. These NSLs also prohibited 
the librarians from disclosing the fact that they had received the NSLs 
or their contents--the so-called ``gag order'' under the PATRIOT Act.
    (a) Please describe the circumstances surrounding the FBI's 
decision to issue these National Security Letters.
    (b) Please identify all of the PATRIOT Act provisions that the FBI 
has used to obtain library records from libraries and educational 
institutions?
    (c) Is the FBI circumventing the requirements of Section 215 by 
relying on other provisions in the PATRIOT Act to obtain this 
information?
Arar/Watchlist
    13. I have asked before about Maher Arar, a Canadian citizen who 
when returning home from a vacation in 2002, was detained by federal 
agents at JFK Airport in New York City on suspicion of ties to 
terrorism, and was sent to Syria, where he was held for 10 months. 
After I pressed the Attorney General about the Arar case at a hearing 
in January, Senator Specter and I were finally granted a classified 
briefing. After that briefing, we wrote to request a Justice Department 
investigation into the matter and have learned that the Department's 
Office of Professional Responsibility is looking into the Department's 
legal decisions.
    (a) Is the FBI taking any steps to evaluate whether your agents and 
officials acted properly in the Arar matter, particularly with regard 
to the original decision to send him to Syria, rather than to Canada?
    (b) Given that a past OPR investigation of a politically sensitive 
matter, specifically the NSA's warrantless wiretapping program, appears 
to have been blocked, will you commit to cooperate with OPR's 
investigation of the Arar case?
    (c) What steps has the FBI taken to ensure that you do not 
participate in sending other people in the future to places where they 
will be tortured?
    14. Despite having been cleared of all terrorism allegations by 
Canada, Mr. Arar remains on a United States terror watch list. In fact, 
The Washington Post reported on Sunday that our watch lists keep 
growing, with the Terrorist Identities Datamart Environment 
(``TIDE'')--the master list from which other lists, like the No Fly 
list, are taken--now numbering about 435,000 people.
    (a) Doesn't such a large and constantly growing list actually make 
it harder for the FBI and others to use the information? Wouldn't the 
FBI and other agencies be able to do much more to protect us with a 
more controlled list, focused on serious and proven threats?
    (b) The Washington Post article also noted the difficulty that 
people on the list, or with names similar to people on the list, have 
in getting off of government lists--which restrict their travel and 
their lives. The Government Accountability Office issued a report last 
year setting out some of the failures throughout the government in 
allowing individuals effective redress if they are wrongly placed on 
these lists. In light of the Arar situation, Senator Specter and I 
asked the Government Accountability Office to update their review. What 
steps has the FBI taken to allow individuals who may be wrongly on 
watch lists to challenge and correct those designations?
Sentinel
    15. Now a year into the Bureau's Sentinel computer upgrade program, 
I remain concerned about the prospect of this program and its 
ballooning costs to American taxpayers. Earlier this month, the FBI 
informed the Committee that it had encountered unexpected problems with 
the deployment of Phase I of the Sentinel program that would delay the 
program. Even more troubling, the FBI could not tell Committee staff 
how long it would take to remedy these problems, or how the delay would 
impact the overall schedule for Sentinel. What is the current status of 
the Sentinel program and do you anticipate that there will be 
additional delays in deploying the program or costs overruns? What 
impact have the delays with Sentinel--and Trilogy before it--had on the 
Bureau's ability to fulfill its core mission?
Civil Rights Cold Cases
    16. In February 2006, the FBI established a nationwide initiative 
to re-examine civil rights era cold cases. At a press conference on 
February 27th, the FBI released a press statement announcing that 
although 100 cold cases have been referred to the Bureau, the FBI has 
prioritized only a dozen. I applaud the effort to reexamine these 
cases, but why has the FBI only prioritized a mere handful of civil 
rights era cold cases? How many agents, analysts, and other resources 
has the FBI committed towards this important effort?
    17. Earlier this year, I joined Senator Dodd in re-introducing the 
Emmett Till Unsolved Civil Rights Crime Act. This bill creates 
permanent unsolved civil rights crimes units within the FBI and the 
Civil Rights Division of the Justice Department to investigate and 
prosecute these crimes. This bill will also give law enforcement the 
resources to ensure that justice is served. As a former prosecutor, I 
strongly believe law enforcement should have the necessary tools to 
aggressively seek those who have committed these crimes, regardless of 
the time that has passed. Would you support the Emmett Till bill? Do 
you believe this bill gives the FBI the resources needed to thoroughly 
investigate unsolved civil rights murders?
Lost Laptops/Data Security
    18. In February, the Inspector General for the Department of 
Justice released another troubling report finding that the FBI lost 160 
laptop computers--including at least ten computers that contained 
classified information and one that contained sensitive personal 
information about FBI personnel--during a 44-month period. Even more 
troubling, the report also found that the FBI could not even account 
for whether 51 other computers, including seven computers that were 
assigned to the Bureau's counterintelligence and counterterrorism 
divisions, might contain classified or sensitive data. What is the 
Bureau doing to address its problem of lost laptops and lax data 
security?
    19. Earlier this year, Senator Specter and I reintroduced our 
Personal Data Privacy and Security Act, which would, among other 
things, require federal agencies to give notice to the individuals 
whose data is lost or stolen, when a data breach occurs. Did the FBI 
notify the individuals whose sensitive personal information was lost in 
the case of the missing laptops? Would you support this legislation?
    20. After the VA lost a laptop containing sensitive personal 
information about millions of veterans and active duty personnel, 
Secretary Nicholson instituted a new policy requiring that all of the 
VA's computers contain encryption technology to prevent the 
unauthorized disclosure of sensitive information. Will you make a 
similar pledge to use encryption technology for all of the Bureau's 
computers?
DNA Sampling
    21. Pursuant to a little noticed provision in the Violence Against 
Women Act reauthorization bill, the Department of Justice is currently 
developing new guidelines that would greatly expand the Government's 
ability to collect DNA samples--which reveal the most sensitive genetic 
information about an individual--from most individuals who are arrested 
or detained by federal authorities and to store this sensitive 
biological information in a federal data base known as the National DNA 
Index System. This new policy will allow the Federal Government to 
collect DNA samples from hundreds of thousands of illegal immigrants 
who may be detained by federal authorities and from individuals who may 
be arrested--in essence, making DNA collection as common as 
fingerprinting. What privacy protections are in place under the 
Department's new guidelines to ensure that sensitive DNA data contained 
in the National DNA Index System will not be misused or improperly 
disclosed by the FBI or other federal and state agencies?
    22. I am also concerned about this new policy because the new DNA 
evidence collected by the Government will add to the already notorious 
backlog at the Bureau's laboratory. According to press reports, the FBI 
acknowledges that this new policy will result in an increase of as many 
as 1 million additional DNA samples a year. Is the Bureau's laboratory 
equipped to handle this additional workload? What steps are you taking 
to make sure that the FBI's laboratory can keep up with the demand for 
DNA samples?
Improper Reporting of Terrorism Statistics
    23. The Department of Justice Inspector General found in another 
recent report that the FBI failed to accurately report eight of the ten 
terrorism statistics that it reviewed for this report--that is an 80 
percent failure rate. Among other things, the FBI overstated the number 
of terrorism-related convictions for 2004, because it included cases 
where no terrorism link was actually found. This is no simple matter--
the Congress relies upon these statistics to conduct oversight and to 
make funding and operational decisions regarding the Bureau. What steps 
have you taken to address the problems with reporting of terrorism 
statistics at the FBI?
Staffing
    24. I also remain concerned about staffing at the Bureau. In 
January, your Deputy, John Pistole, told the Senate Intelligence 
Committee that the FBI expects to lose 400 agents and 400 intelligence 
analysts this year, due to retirement or attrition. Mr. Pistole also 
stated that approximately 20 percent (370) of the FBI's intelligence 
analysts have less than a year of experience with the Bureau. I cannot 
help but worry that the Bureau will not have the staffing and expertise 
that it needs to carry out its counterterrorism and counterintelligence 
mission, given these figures on staffing. What are you doing to address 
the shortage in intelligence analysts and agents? How many agents and 
analysts do you expect to hire by the end of 2007?
FOIA
    25. I was disappointed to learn that the FBI has not met several of 
its goals to improve FOIA processing under the President's Executive 
Order 13392, including the important goal to complete all FOIA requests 
that are more than two years old by August 2006. What is the current 
status of the FBI's FOIA backlog?
MI5
    26. After the horrific attacks of September 11th, I worked very 
hard with others in Congress to give the FBI the tools that it needed 
to combat terrorism and carry out its domestic intelligence functions. 
Given what we have learned about the widespread misuse of National 
Security Letters and chronic staffing problems in the Bureau's 
counterterrorism and counterintelligence offices, some are calling for 
the Congress to put the Bureau's domestic intelligence operations in a 
new MI5-styled domestic intelligence agency. Do you believe that 
Congress should create a domestic intelligence agency to carry out the 
Nation's domestic counterterrorism activities?
  political landscape ``informational briefings'' by white house for 
                      senior government officials
    Question. A number of recent reports, including Tuesday's (April 
24, 2007) Los Angeles Times and today's Washington Post, suggest that 
White House staff, including Ken Mehlman, Scott Jennings and perhaps 
others, have provided what a White House spokesman calls 
``informational briefings to appointees throughout the federal 
government about the political landscape.''
    Have appointees or employees at the United States Department of 
Justice received such ``informational briefings''?
    Answer. The Department queried components to determine whether any 
political appointees attended or were aware of any employees within the 
components attended a briefing with White House officials described in 
the inquiry. The Department's Office of Information and Privacy and the 
Executive Secretariat also conducted searches of the electronic and 
paper files.
    The Department's information indicates that employees attended 
briefings at the White House's Eisenhower Executive Office Building and 
in one instance, at the U.S. Department of Agriculture. The 
Department's records do not indicate whether all of the meetings 
actually included a political briefing regarding elections or 
candidates.
    Question. Have appointees or employees at the United States 
Department of Justice received briefings from White House staff that 
reviewed polling data?
    Answer. The Department's search efforts did not reveal information 
indicating that briefings of the type described in the inquiry were 
held at the Department of Justice. The Department's information 
indicates that DOJ employees attended briefings at the White House's 
Eisenhower Executive Office Building and in one instance, at the U.S. 
Department of Agriculture. The Department's records do not indicate 
whether all of the meetings actually included a political briefing 
regarding elections or candidates.
    Question. Have appointees or employees at the United States 
Department of Justice received briefings that mentioned congressional 
election or reelection campaigns?
    Answer. The Department's information indicates that DOJ employees 
attended briefings at the White House's Eisenhower Executive Office 
Building and in one instance, at the U.S. Department of Agriculture. 
The Department's records do not indicate whether all of the meetings 
included a political briefing regarding elections or candidates.
    Question. According to a front page story in today's Washington 
Post, before the last midterm election, White House staff conducted 20 
such briefings in at least 15 government agencies on the electoral 
prospects of Republican and Democratic candidates. If any such 
briefings have occurred at the Department of Justice, please provide me 
with the specifics on when they occurred, who attended, what was shared 
and said, and all documents reflecting such matters in the custody, 
possession or control of the Department.
    Answer. The Department's search efforts did not reveal information 
indicating that briefings of the type described in the inquiry were 
held at the Department of Justice. The Department's information 
indicates that DOJ employees attended briefings at the White House's 
Eisenhower Executive Office Building and in one instance, at the U.S. 
Department of Agriculture. The Department's records do not indicate 
whether all of the meetings included a political briefing regarding 
elections or candidates.
                                 ______
                                 
            Questions Submitted By Senator Pete V. Domenici
                indian country methamphetamine problems
    Question. As you know, methamphetamine is a growing problem around 
the country, second only to alcohol and marijuana as the drug used most 
frequently in many Western and Midwestern states. Meth has become an 
epidemic because of its low cost and ready availability. Law 
enforcement officers continue to raid record numbers of clandestine 
labs. Despite these efforts, meth use in communities continues to 
increase. These labs present a clear and present danger to the citizens 
of my state and to people across the country.
    Congress has passed the Combat Meth Act to provide valuable new 
resources and tools to states, local law enforcement and prosecutors to 
combat the production and distribution of meth while at the same time 
educating our communities about meth. The DEA is requesting $29.2 
million for its Southwest Border and Methamphetamine Enforcement 
Initiative.
    I'm told by experts in my home state of New Mexico that many of our 
meth problems are the result of the drug being brought into the United 
States from Mexico. I have also been told that the decrease in illegal 
importation of Meth is directly correlated to the increase in 
clandestine labs. I am very concerned about meth production and use on 
the Native American lands in New Mexico. Knowing the FBI's jurisdiction 
in Indian Country, has the FBI seen an increase in violent crimes and 
felonies on the Navajo Nation and in the four-corners area of New 
Mexico that are meth related?
    Answer. The FBI has noted increases in the use of methamphetamine 
and in methamphetamine-related violence in this area over the past four 
years, and in some locations the increase in violence has included an 
increase in the number of assaults on law enforcement officers by 
methamphetamine traffickers and users. While the overall level of 
violent crime in Indian Country (IC) has remained relatively constant 
from 2004 to the present (based on the number of pending cases, cases 
opened, arrests, indictments, informations, and convictions for murder, 
assault, adult rape, and child physical abuse), the incidence of IC 
violent crime remains high.
    It is the FBI's understanding that research by the Office of 
National Drug Control Policy indicates a reduction in the number of 
methamphetamine laboratories in the United States, with much of the 
methamphetamine used in the United States being manufactured in Mexico. 
These drugs are often trafficked through IC for sale in the United 
States. These findings are consistent with the FBI's analysis and 
experience and, in an effort to address the surge in IC methamphetamine 
trafficking, the FBI has continued to expand its STTF initiative. 
Sixteen STTFs, comprised of Federal, tribal, state, and local law 
enforcement officers, operate throughout the IC. The interagency 
partnerships established in these task forces benefit IC law 
enforcement by leveraging resources. On many Native American Indian 
reservations, the STTFs provide the only effective narcotics 
investigation capabilities. Initial data for fiscal year 2007, indicate 
that STTFs obtained 69 indictments, arrested and/or located 96 
subjects, obtained 86 convictions, and disrupted two drug trafficking 
organizations.
    Question. What other trends are you seeing on Tribal Lands relating 
to felony criminal activity that is under the purview of the FBI's 
jurisdiction?
    Answer. FBI SAs assigned to IC continue to report high levels of 
violent crime on Native American reservations throughout the United 
States, including a marked increase in the number of IC child sexual 
assault cases in fiscal year 2007 as compared with fiscal year 2005 and 
2006. The number of child sexual assault cases opened in fiscal year 
2007 outnumbered those for fiscal year 2006 by 7 percent.
    In order to better equip Federal and tribal officials investigating 
IC child sexual assault allegations, the FBI has developed a course 
focused on forensic interviews of children in IC cases. This training 
was offered regionally on three occasions in fiscal year 2007 and will 
be offered again in fiscal year 2008. In addition, the FBI has worked 
to create a state-of-the-art child advocacy center on the Crow 
Reservation in Montana. This center, which opened on 4/24/07, provides 
child-appropriate interviewing services to IC investigators on the Crow 
and Northern Cheyenne Reservations. (This valuable resource has also 
been used by state officials investigating the alleged sexual abuse of 
non-Indian children.)
    Compounding the problems associated with high violent crime rates 
and drug trafficking in IC are increasing problems related to IC street 
gang structures, many of which engage in drug trafficking to enhance 
their gang influence. The majority of large Native American 
reservations suffer from some level of gang influence, ranging from 
``emerging'' to established street gang structures engaged in organized 
criminal activity. In the past, Native American gangs engaged primarily 
in property-based crimes such as graffiti and vandalism. IC law 
enforcement officials are particularly concerned about the movement 
toward more violent criminal acts, including sexual assaults, gang 
rapes, home invasions, drive-by shootings, beatings, and elder abuse. 
During a 2006 assessment of gang activity on the rural Crow Indian 
Reservation in Montana, teenage gang members told FBI SAs of impending 
drive-by shootings on that reservation and acknowledged ``jumping in'' 
(severely beating) and ``sexing in'' (requiring sexual activity from) 
prospective female gang members.
    The emergence of Native American gangs in IC has largely been 
attributed to the strained Native American social environment and 
pervasive media influences. Native American gangs often assume 
characteristics of urban street gangs, using common signs, symbols, 
names, slang, and attire. These gangs have been significantly 
influenced by members who were previously incarcerated and involved in 
prison gang cultures. As incarcerated individuals have been released 
from prison to their reservation communities, they have enhanced their 
influence by promoting their prison gang affiliations, fostering the 
growth of criminal gang cultures in IC. In addition to prison gang 
influences, IC law enforcement officials have noted the emergence of 
female Native American gangs, members of which have escalated their 
violent behavior in order to prove they are as violent and anti-social 
as their male counterparts.
    The FBI sponsors training for all levels of IC law enforcement, 
including approximately 25 classes per year for 1,200 Federal, state, 
local, and tribal law enforcement officials. This training addresses 
Native American gangs, crime scene processing, child abuse 
investigations, forensic interviewing of children, homicide 
investigations, interviewing and interrogation, officer safety and 
survival, crisis negotiation, and Indian Gaming.
                             internet crime
    Question. The Albuquerque Journal reported this week that over the 
past two years, internet crime in my home state of New Mexico has 
increased by over 235 percent, while internet crime nationwide has 
remained at the same levels. This news story went on to state that the 
technology boom in rural America may be the cause of increased internet 
criminal activity in New Mexico. Electronic criminal activity is a 
serious issue that appears to be difficult to investigate and 
prosecute.
    Has the FBI made any inroads into cracking down on this type of 
criminal activity?
    Answer. The series of international searches, arrests, and 
confessions accomplished in the past several years through Operation 
Fast Link and Operation Site Down have enabled the FBI to make 
significant progress in addressing IP Internet criminal activity. The 
FBI is also focusing on the counterfeiting of business software and 
hardware products, which has significant international impact. The FBI 
will continue to work with industry, state and local law enforcement 
authorities, and our foreign law enforcement partners to ensure that 
our IP enforcement measures are as effective as possible and address 
the problem at all levels.
    Question. What is the FBI doing to assist local law enforcement 
with investigations related to internet crime?
    Answer. The FBI's approach to Internet crime includes more than 75 
cyber task forces, which include state and local law enforcement and 
leverage the FBI's ability to provide support and guidance in support 
of their local investigations. These task forces supplement the FBI's 
investigative efforts by supporting not only IP rights and Internet 
crime investigations, but also computer intrusion and ``Innocent 
Images'' investigations.
    In addition, the Internet Crime Complaint Center (IC3), which is a 
project jointly run by the FBI and the National White Collar Crime 
Center, receives over 22,000 Internet crime complaints per month from 
consumers and businesses. All complaints received by IC3 are accessible 
to Federal, state, and local law enforcement to support active 
investigations, trend analysis, and public outreach and awareness 
efforts. During 2006, IC3 referred 86,279 complaints of crime to 
Federal, state, and local law enforcement agencies around the country 
for further consideration. The vast majority of these cases involved 
fraud and a financial loss on the part of the complainant.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. So, this subcommittee stands in recess 
until 10 a.m., Thursday, May 3, when we will take testimony 
from the Equal Employment Opportunity Commission.
    Mr. Mueller. Thank you, Madam Chairman, and thank you for 
letting me out of here so I can attend to the next function I 
have to make.
    Thank you.
    [Whereupon, at 11:43 a.m., Thursday, April 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
May 3.]

</pre></body></html>
